<html>
<title> - HEARING ON OCEAN OBSERVING SYSTEMS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                   HEARING ON OCEAN OBSERVING SYSTEMS

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                     JULY 30, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-106

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>



 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources




                      U.S. GOVERNMENT PRINTING OFFICE
 50-670 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       FRANK PALLONE, Jr., New Jersey
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
WALTER B. JONES, Jr., North          SOLOMON P. ORTIZ, Texas
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                Chris Mann, Democratic Legislative Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 30, 1998.......................................     1

Statement of Members:
    Delahunt, Hon. William D., a Representative in Congress from 
      the State of Massachusetts.................................    14
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, prepared statement of.............     2
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     2

Statement of Witnesses:
    Baker, D. James, Under Secretary for Oceans and Atmosphere, 
      Department of Commerce.....................................     6
        Prepared statement of....................................    40
    Colwell, Rita, Director, National Science Foundation.........     9
        Prepared statement of....................................    48
    Gaffney, Rear Admiral Paul G., II, Chief of Naval Research, 
      United States Navy.........................................    10
        Prepared statement of....................................    51
    Gagosian, Robert, Director, Woods Hole Oceanographic 
      Institution................................................    22
        Prepared statement of....................................    62
    Grassle, J. Frederick, Director, Institute of Marine and 
      Coastal Science............................................    25
        Prepared statement of....................................    70
    Kennel, Charles, Director, Scripps Institute of Oceanography.    20
        Prepared statement of....................................    52
    Watkins, James, President, Consortium for Oceanographic 
      Research and Education.....................................    26
        Prepared statement of....................................    59



                   HEARING ON OCEAN OBSERVING SYSTEMS

                              ----------                              


                        THURSDAY, JULY 30, 1998

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. in 
room 1324, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The Subcommittee will come to order.
    I want to thank everyone for the extraordinary effort in 
preparation for this morning's hearing. And it is primarily 
because of that extraordinary effort that we are proceeding 
with the hearing at a rather difficult time. It is at this hour 
the funeral of one of the officers is being held over in 
Virginia, so we debated in our mind about whether we should 
move forward. But because of the distances that some of you 
traveled, and because of the great effort that went into this 
morning's hearing, in preparation for it that is, we decided to 
proceed.
    The Subcommittee on Fisheries, Conservation, Wildlife and 
Oceans is meeting today to conduct an oversight hearing on our 
nation's ocean observing systems. The importance of the ocean 
is being recognized more each day for the role in the global 
climate and environment and the potential uses of the 
biological and mineral resources it harbors.
    The United States needs to evaluate its marine observation 
systems and determine if the facilities and the technology in 
our current arsenal are sufficient to meet the requirements to 
understand, conserve, and use resources in the marine 
environment.
    As some of you are aware, the Oceans Act of 1998, which was 
also interesting this week, establishes a commission to 
evaluate the state of our oceans research and technology and 
the laws that govern marine issues. This bill was approved by 
the House Resources Committee yesterday, and we expect it to 
move quickly through the House. The input and interest of some 
of today's witnesses has proved invaluable over these past 
months, and I thank you for the input and the expert 
information that you were able to provide us.
    However, today's hearing was called to gain insight into 
the status of the Nation's oceans observing systems and 
determining the needs that exist for a further understanding of 
the marine ecosystem. By hearing testimony from both the 
administration and the scientific community, we hope to better 
comprehend the direction that policy needs to be taken in order 
to develop more sound policies when it comes to the ocean and 
its inhabitants.
    We look forward to hearing from each of you this morning 
and hearing your perspective on a variety of current observing 
systems.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good morning. The Subcommittee is meeting today to discuss 
the status of the nation's ocean observing systems.
    The importance of the ocean is being recognized more each 
day for its role in the global climate and environment and the 
potential uses of the biological and mineral resources it 
harbors. The United States needs to evaluate its marine 
observation systems and determine if the facilities and 
technology in our current arsenal are sufficient to meet our 
requirements to understand, conserve and use the resources in 
the marine environment.
    As some of you are aware, the Oceans Act of 1998 
establishes a commission to evaluate the state of our oceans, 
research and technology, and the laws that govern marine 
issues. This bill was approved by the House Resources Committee 
yesterday, and we expect it to move quickly through the House. 
The input and interest of some of today's witnesses has proved 
invaluable over these past months, and I thank you for your 
expertise.
    However, today's hearing was called to gain insight into 
the status of the nation's ocean observing systems and 
determining the needs that exist to further our understanding 
of the marine ecosystem. By hearing testimony from both the 
Administration and the scientific community, I hope to better 
comprehend the direction that policy needs to be taken in order 
to develop more sound policies, when it comes to the ocean and 
its inhabitants.
    I am looking forward to each of your testimony and hearing 
your perspective on a variety of current observing systems.

    Mr. Saxton. As I mentioned earlier, because of other events 
that are taking place at this time, I expect that I will be 
here alone for most of the hearing; that is, without other 
members. So I ask your understanding. And I ask unanimous 
consent that all Subcommittee members be permitted to include 
their opening statements in the record. And, obviously, that 
will occur.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    I would like to compliment Chairman Saxton for holding this 
oversight hearing. In light of the fact that the Oceans Bill 
was reported from the Resource Committee yesterday, this 
hearing is very timely.
    The science community's needs to study the widely unknown 
ocean must be established in conjunction with the Ocean 
Commission that we hope to pass. By coordinating the efforts of 
the scientific community and the elected officials both here 
and outside Washington, a more concerted effort can be 
developed.
    Without widespread understanding of the oceans, many 
problems, ranging from fisheries conservation to those of 
pollution, will go either completely unaddressed or 
inadequately resolved. Therefore, through the testimony we will 
hear today, I am optimistic that we will gain some perspectives 
from the Administration and also some valuable insights into 
the needs and hopes of the scientific community.
    I look forward to hearing from this extraordinary group of 
witnesses that have been assembled today.

    [The prepared statement of Mr. Pallone follows:]

Statement of Hon. Frank Pallone, Jr., a Representative in Congress from 
                        the State of New Jersey

    Mr. Chairman,
    Thank you for holding this hearing today on such an 
important and timely issue, the oceans. Our oceans are 
critically understudied and while they cover roughly three 
fourths of the planet, observations have lagged far behind 
those on land.
    If anyone doubts the importance of ocean observations, they 
need only to look as far as our most recent El Nino 
predictions. These predictions, based on models and ocean 
observations, gave state and local managers the information 
they needed to take precautionary measures before disaster 
struck, saving millions of dollars and countless lives.
    There are yet other ocean observations that have yielded 
tremendous benefits. The Ocean Drilling Program has produced 
sediment cores to study long-term climate variability. 
Submersible observations have discovered hydrothermal vents 
where entire communities of unique marine organisms flourish. 
These organisms which live without sunlight, and under intense 
heat and pressure, show tremendous promise in the cutting-edge 
field of biotechnology.
    Past ocean observations have also yielded exciting medical 
benefits. Today over half of all new cancer drug discoveries 
are coming from marine organisms. Further research in this area 
could lead to even further breakthroughs.
    At the National Ocean Conference in Monterey, California, 
the President announced several initiatives to explore, restore 
and protect our ocean resources. I am particularly interested 
in two initiatives announced: Exploring the Last U.S. Frontier 
and Monitoring Climate and Global Warming.
    I look forward to hearing from today's witnesses on the 
current state of our ocean observations, what areas need 
additional research, and what partnerships are taking place to 
meet these needs.

    Mr. Saxton. We are going to hear something a little unusual 
this morning. One of our witnesses, Dr. Gagosian, the director 
of Woods Hole Oceanographic Institute, will be showing us a 
film on some recent undersea research taken by the scientists 
there. It will take about 5 minutes. Immediately following the 
film we will introduce the first panel.
    I would like to introduce the film. Are we all set? We have 
two monitors. So it looks like we are all set. You might want 
to dim the lights a bit, and we will go ahead and watch this 
video.
    Dr. Gagosian. Mr. Chairman, I have been asked today to 
speak to the issue of the deep sea. For this video 
presentation, I will present how we explore the deep sea floor 
2 to 3 miles below the surface of our blue planet and what we 
see down there. During my testimony, I will talk about why we 
need to explore the deep sea and what technical improvements we 
need to produce the best science.
    But first, what tools do we need to explore this blue 
planet? How do we explore our inner space where buoyancy is 
important and gravity is not? We use human-occupied vehicles. 
HOVs, like Alvin, with its support vessel Atlantis, Alvin is 
part of the National Deep Submergence Facility located in Woods 
Hole, Massachusetts. Alvin holds three people, two scientists 
and a pilot, and can dive to a depth of 14,000 feet. It 
averages roughly 180 dives a year. It can explore 86 percent of 
the ocean floor.
    The National Deep Submergence Facility also has remotely 
operated vehicles and autonomous vehicles. You are all familiar 
with the remote vehicle Jason. It was used to explore and 
discover the Titanic. Jason has a depth capacity of 20,000 
feet, can operate 20 hours a day, and is tethered to the ship 
with a fiberoptic cable. It works by a team approach both on 
the ship and on land. It is linked by satellite to a global 
audience.
    And there are autonomous vehicles, such as the autonomous 
benthic explorer, Abe. It is untethered. It drops off the side 
of the ship, goes through the water column, goes down to the 
bottom of the ocean, goes into a cradle, and goes to sleep, 
wakes up on command, and runs around the bottom of the ocean 
sensing different events that occur down there.
    Another example is REMUS, the remote environmental 
monitoring unit. There are several in operation. This is a 
cartoon, if you will, an animation of a futuristic robotic 
colony on the sea floor. What you are seeing here in the black 
sections are the areas covered by side scan sonar used to map 
the sea floor topography. The use of these robotic colonies 
clearly is for mine warfare and monitoring earthquakes, as a 
couple of examples, as shown here; also to monitor waste dump 
sites. You can also see from this particular animation the 
autonomous benthic explorer involved in this surveying the 
bottom of the ocean in this futuristic effort.
    Now let's talk about other advances in technology. Cameras. 
The Titanic was discovered in 1986 by Woods Hole Deep 
Submergence Laboratory, headed by Bob Ballard. This is a low-
light video, high-altitude imagery of Titanic. Remember, 
Titanic is 2\1/2\ miles below the ocean floor water.
    In the early 1990's, broadcast quality three-chip cameras 
came along, and as you can see, there is extraordinary clarity 
with respect to the 1986 video. There are a lot of particles in 
the water. And so these new camera systems have allowed 
scientists to look at things and ask questions they were not 
able to do just 5 years earlier. So due to progression in wider 
area and angle views, clarity and resolution, and higher light 
power, a scientist can do, as I mentioned, things they could 
not even dream of doing 5 to 10 years earlier.
    An excellent example of this is the telemotor. This is 
linkage to the rudder of Titanic. The steering wheel is 
attached to it. Note the clarity of the bolts. I would like to 
remind everyone in the room that this is 2\1/2\ miles below the 
ocean surface. It is not in my office.
    One of my favorite pictures is this cup which is found in 
the debris field of Titanic. If you look carefully, you will 
not only see the white star, but you will be able to read 
``White Star Line.''
    Another example of the use of this technology is in a 
forensic survey that was just completed of a bulk cargo carrier 
named the Derbyshire, 964-foot, 2,000-ton iron ore and bulk 
carrier which sank off Okinawa in a typhoon in 1980 in 14,000 
feet of water. This, by the way, is HDTV of a half-inch cable 
from that sunken carrier. Forty-four lives were lost. The 
question is why and how did it sink?
    One hundred thirty-seven thousand digital still images and 
500 hours of color and HDTV video imagery were taken, and as 
you can see, it is really quite extraordinary, the detail. This 
is a fracture in the hatch cover at, again, 14,000 feet. This 
is a plastic tie wrap. Those lines are 1 millimeter apart.
    The synthesis of the imagery, and you will see in a moment 
the bow section, has allowed the people that were working on 
this project to understand why and how it sank. Now, that is 
the technology.
    Let me take you to a place where few people have been 
before, where the heat of the earth drives this engine creating 
a 40,000-mile-long volcanic mountain chain below the sea 
surface at an average depth of 2\1/2\ miles, the longest 
mountain chain on earth, moonless mountains. These are areas 
where hot lava is entering the ocean from deep below in the 
earth's interior creating underwater mountains. You probably 
think this is a volcano on earth, but actually it isn't. It is 
2\1/2\ miles below the ocean's surface. It is at the underwater 
volcanoes where new sea floors are made. It is the most hostile 
environment on earth.
    This is the world of hydrothermal vents. They were 
discovered just 20 years ago, where sea water circulates deep 
below the ocean floor through cracks in the crust from previous 
earthquakes, recycling and heating the water to 700 degrees 
Fahrenheit as it rises to the surface. The pressure is 5,000 
pounds per square inch. It is a world of metal sulfides, iron, 
zinc, copper, and silver, as they condense in the cold water 
creating chimneys that grow several stories high at the rate of 
a foot a week.
    It is also the world where bacteria is the basis of life. 
And what you are seeing here is thick bacterial mat, not snow. 
It is also where chemical reactions, not light, provide the 
energy for life. It is a world of incredible diversity and 
density, where over 300 species have been found, two-thirds of 
which have never been seen before, with an overall growth rate 
as high as the most fertile rain forest in the world.
    It is a world of unusual animals, like these tube worms 
that you are seeing here, which can grow up to 14 feet. They 
grow at a rate of an inch a week. They are the fastest growing 
invertebrates on earth. These organisms coexisted with the 
dinosaurs. Vent organism fossils have been found in 400-
million-year-old ore deposits.
    This never-dreamed-of oasis of life has created a whole new 
thinking of the origin of life on this planet and the 
possibility of life on others. The red tips, by the way, I 
might add, are hemoglobin.
    This is another kind of worm. This is an Alvinella worm, 
named after Alvin. The tip of this worm is in 34 degree 
Fahrenheit water, and the tail is in 175 degree Fahrenheit 
water, and it is only 2 feet long, the highest known 
temperature in which an animal has survived. And a 140-degree 
Fahrenheit gradient over a 2-foot body length is extraordinary.
    Higher up in the food chain, as you can see, are crabs.
    The red light, by the way, is a laser from Alvin. It is 
used to maneuver the submarine.
    So these cameras are indeed our microscopes under the sea. 
And this extraordinary picture of a shrimp actually is a great 
example of that. Shrimp, I might add, on the midocean ridge of 
the Atlantic are teeming in their masses as they feed on 
bacteria. There are literally thousands of them. The light on 
their backs is thought to be coming from light-seeking sensors 
which attract them to the vent.
    There are golden-colored mussels, as well. They do not feed 
on the bacteria like the shrimp, but the bacteria reside inside 
them, producing the mussels' food source. They grow as large as 
a 12-inch dinner plate.
    So, only 20 vent sites have been explored on this 40,000-
mile mountain chain. Many more have been hypothesized. Imagine 
the discoveries to come. This is the earth at night, and it 
shows pretty clearly how much more we have to explore on the 
planet ocean.
    Thank you.
    Mr. Saxton. Doctor, thank you very much. That was 
impressive, to say the least, and we thank you.
    Doctor, we understand that you are going to be here with us 
and be part of the second panel. And, so, we look forward to 
chatting with you further.
    Permit we to welcome Mr. Farr aboard, my ocean partner. I 
am his ocean partner. One way or the other. Anyway, we work 
closely together and have been, for the last several weeks, 
seing a lot of each other.
    Let me just introduce the first panel at this time. No 
stranger to the members of the Committee, Dr. Jim Baker, Under 
Secretary of Oceans and Atmosphere, Department of Commerce; Dr. 
Rita Colwell, Director of the National Science Foundation; and 
Rear Admiral Paul Gaffney II, Chief of Naval Research, United 
States Navy.
    We remind each of you that, for purposes of keeping things 
going, we operate here under 5-minute rule. Obviously, your 
entire written statement will be included in the record, but if 
you would try to summarize it in the allotted 5 minutes, we 
would be most appreciative.
    Dr. Baker, why do not you begin.

  STATEMENT OF D. JAMES BAKER, UNDER SECRETARY FOR OCEANS AND 
               ATMOSPHERE, DEPARTMENT OF COMMERCE

    Dr. Baker. Thank you, Mr. Chairman, for this opportunity to 
testify on ocean observations and related activities and also 
to highlight some of the details from the National Ocean 
Conference.
    Mr. Chairman, I know you had planned to attend the National 
Ocean Conference. I am sorry your schedule would not allow you 
to be there, but I would like to, in my short testimony here, 
summarize some of the results that came out of that important 
meeting.
    But let me say first that this wonderful film that Bob 
Gagosian just showed is a perfect example of the kind of 
partnership that we have between the Federal Government, the 
oceanographic institutions, and the academic community that 
work so well.
    The Woods Hole Oceanographic Institution, the Scripps 
Institution of Oceanography, and you will also be hearing from 
Rutgers, are three examples where Navy, NOAA, NSF and other 
agencies all work together to make new things happen; and it 
could not happen without that long-term partnership that has 
worked very well.
    Let me start by saying that the support of this committee 
has been critical to the successful forecast of El Nino this 
past year. Our array of buoys in the tropical Pacific called 
the Tropical Atmosphere Ocean array, the TAO array, provide the 
key data for researchers and NOAA forecasters to provide the 
first-ever forecast for El Nino.
    This forecast has brought important economic returns to the 
country and has introduced ocean and climate science to homes 
across all regions of the United States. Just one example, 
benefits to the Nation's agricultural industry alone of the 
forecast are estimated to be somewhere between $240 and $266 
million. That is just for one forecast.
    But despite recent advances, our understanding of the 
surface and interior ocean, the variability of the ocean, and 
the interaction with the atmosphere and of the subsurface 
processes and resources is just at the beginning.
    Recognizing this fact, President Clinton and Vice President 
Gore, at the recent National Ocean Conference, launched several 
major initiatives for the exploration, restoration, and 
protection of America's ocean resources. These measures will 
provide new scientific insight into the ocean, open new 
opportunities for jobs and economic growth, and also preserve 
our oceans for all time.
    We are proposing an additional $224 million through 2002 to 
support these efforts beginning in fiscal year 2000. The 
initiatives particularly relevant to ocean observations are 
exploring the last U.S. frontier and monitoring climate and 
global warming.
    Understanding our ocean observation programs will require 
some discussion of the tools and processes used for 
observation. The tools include submersibles, profiling floats, 
buoys, state-of-the-art satellites. They are all in a process 
of almost constant evolution as our abilities to understand the 
oceans deepen and our needs for scientific data expand.
    In addition to these tools, NOAA has created various 
partnerships with various agencies, oceanographic institutions, 
universities, and other countries to share the responsibilities 
of resources that ocean observations require. And I am pleased 
that we have been able to start a new joint institute at Woods 
Hole Oceanographic Institution, an important new activity for 
us.
    The El Nino observing system is focused on the tropical 
Pacific Ocean, but scientists recognize a climate variability 
results from interactions among different oceanic regions. So 
improved predictability requires the integration of observing 
systems over all of the oceans which need to be combined to 
create critical climate information for all of the U.S. and 
foreign climates.
    We need to have a system, Mr. Chairman, in the ocean that 
is as good as the atmospheric system that we have today. Thus, 
in 1998, the International Year of the Ocean, all of the 
agencies are committed to participating in the building of a 
global ocean observing system that is essential to improving 
the basis for our climate forecasting. This observing system 
will include what we have today provided by NOAA, Navy, the 
National Science Foundation, and other agencies, plus new 
profiling autonomous tide gauge circulation explorer floats. 
These are floats that float in the midwater. They go up and 
down. They are profiling. They are independent of any 
connections, so they are autonomous and they float with the 
currents. They promise a very cost-effective approach for 
large-scale ocean measurements.
    At the conference in Monterey, the President proposed an 
additional $12 million to expand the array of these floats in 
the north Pacific and north Atlantic. This new array will 
provide the backbone of the sustained global ocean observations 
needed to improve climate forecast skill.
    In addition to these sea surface and satellite-based 
platforms, NOAA has developed a suite of undersea ocean 
observation systems. Submersible and hydroacoustic technologies 
supported by all the agencies have brought scientists to a new 
frontier in fields of underwater research. Recent advances have 
allowed us access to thousands of square miles of virtually 
unexplored sea floor resources. With strong congressional 
support, NOAA has maintained sea floor observatories and is 
providing significant new support for various efforts, 
including the Aquarius, the long-term environmental observatory 
off New Jersey, and the VENTS program in sites along the 
Pacific coast.
    The costs of ocean observation programs are high, and NOAA 
is not fully able to fully underwrite the costs alone. 
Therefore, we are working in cooperation with our sister 
agencies and other nations on oceanographic research and 
satellite observations.
    Mr. Chairman, as we move to a more global ocean observation 
system, we must learn enough about the ocean to design such a 
system. The World Ocean Circulation Experiment was a good 
start. Now scientists have proposed the next steps, which NOAA 
is pleased to help with. The Global Ocean Data Assimilation 
Experiment, called the GODAE, will create a means to provide 
up-to-the-minute analysis of ocean conditions. We are committed 
to supporting this effort through our Oceans Observation 
Program.
    Part of this will also be the Climate Variability and 
Predictability Experiment, CLIVAR, the leading international 
scientific program. These will the basis for the next step, and 
NOAA will be a partner. A critical limiting factor for improved 
climate and weather predictions is our limitation on computing 
power. We need better computers, and we will be working to make 
those happen.
    Mr. Chairman, let me conclude with a note about living 
marine resources, a special interest of yours. More efficient 
management of our Nation's living resources would result from 
better information about the current status of biological and 
physical components of the marine environment. We need to have 
better fisheries stock assessment information to manage 
fisheries.
    On average, our fishery vessels, as you know, are more than 
34 years old. We are looking for ways to replace the capability 
of the vessels. We have a team that has been doing that. 
Admiral Craig Dormand recently reviewed NOAA's plan and 
strongly supported our need for acoustically quiet vessels. The 
report supports construction of four dedicated fishery research 
vessels. In Monterey, the President proposed $194 million to do 
the design and construction of those new vessels.
    Mr. Chairman, your timing for holding this hearing, after a 
very powerful El Nino and before what we are forecasting to be 
a La Nina event, the flip side of El Nino, underscores how 
vital congressional leadership will be in ensuring the long-
term sustained investment that science requires for ocean 
observations.
    The CLIVAR experiment, the GODAE experiment are critical to 
these; and we are prepared to be a partner. The President has 
indicated his support for ocean observations. We are prepared 
to undertake his specific proposals.
    I commit to you that NOAA, through our laboratories and our 
academic partners, will work with our sister Federal agencies 
represented here today, we will work closely with NASA and DoD, 
with satellites, and we will be looking closely to work with 
the private sector in collecting, disseminating, and applying 
ocean data. We will work with the Congress and the 
administration to implement these plans.
    Thank you very much.
    Mr. Saxton. Dr. Baker, thank you very much.
    [The prepared statement of Dr. Baker may be found at end of 
hearing.]
    Mr. Saxton. Dr. Colwell.

     STATEMENT OF RITA COLWELL, DIRECTOR, NATIONAL SCIENCE 
                           FOUNDATION

    Dr. Colwell. Chairman Saxton, as the newly confirmed NSF 
director, I am still sort of wet behind the ears, so I 
particularly appreciate the opportunity to testify today on 
this very important topic of ocean monitoring and assessment, 
and in particular the substantial, very fundamental role that 
the National Science Foundation plays in the Nation's 
oceanographic monitoring and assessment capabilities.
    In fact, this hearing speaks very directly to one of the 
most exciting themes that has emerged from the past decade of 
ocean sciences research, and that is the complexity and 
variability of the oceans, so dramatically demonstrated in the 
video Dr. Gagosian just showed us.
    Frequently, we find significant physical, chemical, and 
biological variations on very small spatial scales, as small as 
a half a mile. It is clearly impossible to monitor the entire 
global ocean or even coastal waters with minute spatial 
resolution. For that reason, it is important to understand the 
underlying processes sufficiently well to be able to interpret 
them. This allows researchers to make a small number of key 
observations that will very reliably tell us over time how the 
system works. The research supported by NSF helps us determine 
what measurements will best characterize changes in the ocean 
and, more importantly, how many measurements are required and 
where they should be located.
    A good illustration, I think, is the NSF-funded Tropical 
Ocean Global Atmosphere, the TOGA program. As its name implies, 
this research program is focused on the physical processes 
occurring in the tropical ocean and the atmosphere. TOGA 
enabled us to recognize the forces that underlie the El Nino 
phenomenon, which in turn led to the design and deployment of 
the existing El Nino Southern Oscillation, the ENSO, observing 
system.
    The question is, how can we possibly monitor such a vast 
and complex system as the oceans? A helpful way to characterize 
the scientific requirements is to consider three classes of 
monitoring systems. One is that we need sustained monitoring 
that provides data to detect the subtle changes that occur over 
a period of a decade or so in the short term. These 
measurements can provide early warning of changes in the 
earth's system.
    Then along with that, we need selected long-term 
observations that allow us to predict changes in the oceans and 
weather systems and to be able to alleviate negative impacts. 
For instance, this year's El Nino activity is a very good 
example of the long-term observation that allowed us to make 
predictions.
    And finally, we need measurements, observations, and 
experiments to help us understand the physical, chemical, and 
biological processes that were responsible for the changes. An 
associated challenge is tracking what is going on in the miles 
and miles of ocean that exist between sensors. This is an area 
in which we have seen remarkable innovation over the past 5 
years. That innovation was primarily fueled by the needs of the 
World Ocean Circulation Experiment, WOCE.
    At this moment there are about 500 robotic vehicles 
distributed over thousands of square miles of the north 
Atlantic oceans. These drift along with the ocean currents 
about a half a mile below the ocean's surface; and about every 
2 weeks, each one of these small instruments pops up and rises 
to the surface collecting data on temperature and salinity as 
it moves up to the surface; and then, via satellite, these data 
are transmitted, as well as the position of these instruments, 
to investigators on shore. After being on the surface for about 
a day, they are sent back down to a profiling depth of about 
half a mile. And this cycle goes on month after month after 
month.
    So these examples, in conclusion, demonstrate how 
technology is changing the way we do oceanography. Permanent 
sea floor observatories, new optical and acoustical imaging 
methods, long-term moorings, deep-diving manned submersibles, 
satellite communications, robotic vehicles, these are all 
vehicles for discovery that NSF supports.
    I will conclude by saying we are in a time of very rich 
opportunities for research in oceanography. We have seen, in a 
very rapid series of events, hurricanes, droughts, floods, 
destruction of coral reefs, coastal erosion, climate change, El 
Ninos, fisheries decline and in some cases simply collapsing, 
and also human health effects, an area of personal interest. We 
can now use ocean monitoring to predict cholera epidemics. So 
there is a very close linkage between what we study in the 
oceans and the welfare of human populations. These are all 
phenomena that are affected by, and in some cases controlled 
by, the oceans.
    The United States oceanographic investigators are world 
leaders. We do not lack talent, ideas, or plans, and given the 
adequate resources, the future is spectacular for discovery and 
understanding.
    Mr. Chairman, thank you very much for the opportunity to 
share with you and the members of the Committee the exciting 
research that is being supported by NSF. The testimony will be, 
of course, in the record; and I would be very pleased to answer 
any questions you might have. Thank you.
    Mr. Saxton. Thank you very much, Dr. Colwell. It does not 
sound like you are wet behind the ears. Thank you for being 
here. That was great testimony.
    Dr Colwell. My pleasure.
    [The prepared statement of Dr. Colwell may be found at end 
of hearing.]
    Mr. Saxton. Admiral Gaffney may proceed.

 STATEMENT OF REAR ADMIRAL PAUL G. GAFFNEY, II, CHIEF OF NAVAL 
                  RESEARCH, UNITED STATES NAVY

    Admiral Gaffney. Good morning, Mr. Chairman and Mr. Farr. 
Thank you for the opportunity for me to appear before you this 
morning to talk about a topic that is very dear to me, our 
oceans. I would like to begin by showing you a graphic.
    This graphic represents our planet. The green part is the 
land, and the blue part is the water, a little more than two-
thirds of our planet. It is about 197 million square miles, 
this whole disk. If you can see that little white square on 
there, that is the amount of the water part of our planet that 
has been imaged or completely explored since we have been alive 
on this planet, or since anyone has been alive on this planet. 
It is about 5 percent, a little bit more than that.
    Again relative to the same size, this is the moon. It 
represents all sides, top, bottom, backside, and front side of 
the moon. It is equivalent to about 11 percent of the ocean, 
twice as much as we have surveyed of our ocean. It has been 
completely imaged, 100 percent, front side, back side, top, and 
bottom.
    I will leave this for your grandchildren.
    Mr. Saxton. We would like to share that with some of the 
folks that were here with us yesterday.
    Admiral Gaffney. We have, in fact, characterized 100 
percent of the ocean. We have used satellite altimetry to 
characterize it at a resolution of about 15 kilometers. But 100 
percent of the moon has been characterized at 100 times better 
resolution than we have characterized our entire planet. This 
concerns me, and I believe we should do something about it.
    The Navy has long considered the study and exploration of 
the oceans to be a required competency. We must do it. We do 
not do it because we love it. We do not do it because it is 
interesting. We do not do it because we have a charter. We do 
love it. It is interesting. We do not have a charter. But we do 
it because it is the foundation that provides information 
required for every single Navy and Marine Corps operation that 
you can imagine.
    Over the past 50 years, we have invested billions of 
dollars in research, instrument and technique development, 
global ocean surveys, data archiving, and predictive 
capabilities. The results of these efforts are seen in many 
ocean monitoring tools and platforms used around the world in 
civil and military oceanography.
    For example, SWATH bathymetry, SWATH sonar, laser line scan 
optical scanners, sensors, the global positioning system, 
acoustic thermometry, long-range acoustic monitoring, deep 
stable moorings, some of the people in this room and the 
institutions that they represent have developed these for us, 
to name just a few.
    In the future, and I will make a commitment right now for 
the future, for the Navy, we are committed to an ocean science 
and technology program that is robust. It is a national 
responsibility, we think, that the Navy has. It is a core 
capability the Navy must foster. We will focus on understanding 
the processes of the ocean and develop the tools to better 
understand those processes.
    We will continue to rely on ships and manned submersibles. 
Frankly, I am quite worried about that part of our repertoire 
of tools at this point. But long-term ocean monitoring and 
assessment need other tools as well, companion tools, tools 
like those that come from our investment in autonomous systems 
that can either be moored or drifting or independently moving, 
small unmanned systems, as Bob Gagosian showed you in his 
videotape that started this session off.
    We are currently working on networks of inexpensive 
autonomous underwater vehicles through a program called the 
Autonomous Ocean Sampling Network. Also on the horizon are new 
remote sensing instruments, such at the Naval Earth Map 
Observer Satellite, or NEMO, which will provide hyperspectral 
images when it is launched in the year 2000.
    NEMO is interesting because it is a partnership between the 
Navy, the Office of the Secretary of Defense, and industry, 
each sharing in the cost of about a $120 million effort, the 
government coming up with about $60 million of that and 
industry coming up with about $60 million.
    It is interesting, because like most big oceanographic 
programs, no one group or agency can support all the cost alone 
for oceanographic research, ship operations, surveying, and 
modeling that needs to be done on a global scale to address the 
issue that we are testifying about today. We formed 
partnerships with agencies and institutions like those 
represented on this panel today and through programs such as 
the National Ocean Partnership Program, which was actually born 
out of a set of hearings that this Subcommittee participated in 
a couple years ago. NOPP, the National Ocean Partnership 
Program, is unique in that agencies that are working together 
can actually create critical mass to address our neglected 
ocean.
    The Navy is proud to have taken an organizational and 
financial lead in the early parts of the NOPP, but our partners 
are strong partners in NOAA, and our vice chairman seated right 
here at the table, Dr. Jim Baker, NSF, NASA and six other 
agencies are stepping up to the plate with us.
    At the National Ocean Conference, I mentioned a notion that 
we should begin the millennium with a focused exploration and 
mapping effort, 100 percent coverage of one important area near 
our United States, a necessary baseline, a precursor to long-
term monitoring.
    I hope to see the National Ocean Partnership Program 
agenda, and its leadership council on their agenda, a 
discussion about the coordination of Federal ocean monitoring 
efforts, how they can be comprehensively sustained, and how we 
can comprehensively baseline them before we start.
    It will take decades to understand the majority of our 
water planet as well as we understand the moon today, but we 
need to begin.
    Thank you for the opportunity to be here. My formal 
testimony is submitted for the record, sir; and I am looking 
forward to answering any questions you may have.
    Mr. Saxton. Admiral, thank you very much.
    [The prepared statement of Admiral Gaffney may be found at 
end of hearing.]
    Mr. Saxton. Since you referred to the National Ocean 
Partnership Act in the latter part of your testimony, let's 
just begin by exploring that some.
    The National Ocean Partnership Act, obviously, was 
established pursuant to legislation that passed the Congress in 
1995. I am just curious as to generally how you view it in 
terms of how successful it has been, how has funding worked 
out, how much was requested by the partnership, how much was 
added by Congress.
    Just in general, can you fill us in on the details, what 
your level of resourcing is, what you need, and how well you 
think things are going?
    Admiral Gaffney. Yes, sir.
    Well, we started out, of course, with initial--some initial 
Navy money and money added by the Congress that was not in the 
President's budget for the first couple of years. The Navy has 
increased its contribution from $5 million to $10 million, and 
we intend to have, for as long as we can imagine, $10 million 
or so in the President's budget as our contribution to the 
National Ocean Partnership Program.
    We have a different budget development process in the other 
agencies, and we are able to, I would say, react faster, not to 
be pejorative, but to act faster to the opportunity of the 
partnership act. So we got our money in, and the other agencies 
are adding money out of whole cloth, if you will, not separate 
line items yet. But we note that there are requests in from 
several agencies to add to that program.
    We have had great cooperation among the several agencies. 
While it has been principally Navy money or Navy money plused-
up by the Congress but put in the Navy line item, all of the 
agencies have worked to select the programs. It would be hard 
to imagine any oceanographic program that would not be Navy-
relevant. So we are very happy to spend our money in a 
deliberate way, debating it with our fellow agencies.
    Good results have come out in education, in data exchange 
and ocean monitoring, and a great dialogue has gone on that I 
have not seen in my 25 years in this town involved with 
oceanography.
    Mr. Saxton. Thank you.
    Dr. Baker, Dr. Colwell, would any of you like to comment?
    Dr. Baker. Thank you, Mr. Chairman.
    I think this has been a wonderful example of pulling 
together the agencies and having an interaction also with the 
academic community. And the role of Admiral Watkins has been 
absolutely critical in making this happen, and I would like to 
thank him for that, because this gives us a formal structure to 
work from, the partnership program, which has started in the 
Navy. And the Navy has done a very good job of accepting the 
leadership there.
    Other agencies, like NOAA have proposed funding for the 
partnership program and, hopefully, will be able to make that 
happen. And the National Ocean Leadership Council, which 
involves a variety of different members, I think, is another 
piece of this proposal or this current structure which I think 
can be very useful in helping advance the ocean's agenda.
    Dr. Colwell. I would add that the National Science 
Foundation is pleased to be one of the Federal partners in the 
National Oceanographic Partnership Program, in NOPP. In fact, 
the NSF is contributing half a million dollars to its funding 
the awards that came out of the NOPP interagency program 
announcement.
    And in addition, NSF has contributed about $200,000 toward 
the NOPP Educational Drifter program and $100,000 to the Ocean 
Science Bowl, which is a nationwide high school science 
competition.
    NOPP is really a very critical component of bringing 
resources together. We are very pleased to be active in it, and 
I also commend Admiral Watkins for his leadership.
    Thank you.
    Mr. Saxton. Thank you.
    Before I ask my next question, let me just observe that Mr. 
Delahunt has joined us. And I am supposed to ask unanimous 
consent that he be permitted to sit. So asked.
    The gentleman from Massachusetts, Cape Cod and Martha's 
Vineyard and Nantucket, to us sailors known as the land of fog.
    Mr. Delahunt. And Woods Hole.
    Mr. Saxton. And Woods Hole. And incidentally, if you have 
never tried to sail past Woods Hole in the fog, you need to try 
that.
    Also, I might note that Karen Steuer is now working for Mr. 
Delahunt, and, also, I understand there is a close association 
with the Woods Hole folks.
    Mr. Delahunt. May I, Mr. Chairman?
    Mr. Saxton. Please.

  STATEMENT OF HON. WILLIAM D. DELAHUNT, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Delahunt. I was just having this chat with Mr. Farr.
    Mr. Saxton. That is ``Farr.''
    Mr. Delahunt. Thank you for the translation, Mr. Chairman. 
And he said, ``Boy, this is real exciting stuff.''
    Let me just compliment Mr. Farr, who also had an 
opportunity to visit Woods Hole, for the work that he is doing 
in terms of these issues. And particularly I want to compliment 
Chairman Saxton, who has really exhibited great leadership in 
this area. And it is really exciting to look out and to see 
representatives from disparate agencies.
    It is exhilarating to really have a chance to visit WHOI to 
see what is occurring down there. I am sorry I missed the 
testimony of Bob Gagosian. But this really is the future. And, 
you know, I think oftentimes the public is skeptical about what 
is happening here in Washington, DC, but if they only could 
participate in hearings such as this, they would see that we 
are on the verge of doing some wonderful things.
    I want to thank you, Mr. Saxton, and you, Representative 
Farr, for really leading this effort in the U.S. Congress.
    Mr. Saxton. Thank you for being with us this morning.
    Let me just ask one further question. Then I will pass the 
baton over to Mr. Farr.
    The Administration recently promised $12 million through 
fiscal year 2002 to assist in the exploration of the ocean. 
Included in this proposal were expansion to two shallow-water 
observing programs, to the development of two deep-sea 
observing programs, and the development of two submersibles.
    How will these funds be spent? What will the research goals 
be? And which agencies will be involved? Of course, I am 
particularly interested as to whether or not LEO-15 will be 
included.
    Dr. Baker. Mr. Chairman, let me answer that question.
    That money was aimed at NOAA to expand our ocean 
observation capabilities, something that we have been trying to 
do for a long time and, as you know, have been urged by 
Congress to expand our activities centered on the NURP program 
and also, hopefully, trying to look at some other areas also.
    We will be, in fact, coming forward, hopefully, in the year 
2000 budget with an initiative that reflects what the President 
has identified there. And, yes, all of the above are included 
at the moment. So we expect to see a substantial expansion of 
what we have had in the past, and each of those items is 
something that we have committed to, and we are working the 
process at the moment.
    Mr. Saxton. Thank you very much.
    Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman.
    I am excited about where we are going, because I think, 
sitting here in late July, that when this Committee convened at 
the beginning of the year, we were starting to speculate, the 
Year of the Ocean, we are the Committee with the ocean 
responsibility, perhaps we can make something of the year. And 
looking back, it is not even over yet, and look at what the 
Year of the Ocean has done. It has got the best-seller in the 
New York Times with A Perfect Storm as a book, and the Academy 
Award went to Titanic, and Dr. Baker produced the El Nino. So 
we have been able to accomplish something in this year and at 
least get our people to think about us.
    Monterey was the kind of the bringing together of the clan. 
Yesterday we passed in this room the Oceans Act, and I think 
that there is a momentum gained. And then the excitement is to 
see that momentum gained and a kind of interest in the issue. 
And I think Admiral Gaffney pointed out how much we have to do 
by that graph there.
    I guess this is where I am concerned as a politician is how 
you keep that momentum going. The President pledged some new 
money in Monterey. I would like to talk to Dr. Baker about 
that. But I think it is more than just the bill has not yet 
been passed off the floor. It has not gone through the 
conference committee, and the President has not signed it, and 
we only have a few days left of really much work to get done 
here before it all kind of breaks apart to go into elections.
    So the concern I have that I want to ask the panel about is 
really how do we take this momentum and really build it up? 
Because what we have learned in the process is that we have an 
awful lot of governments out there, governments and government, 
trying to do ocean work. There is a need for better 
coordination. There is scarce dollars when you compare it to 
even the amount of money that NSF puts into ocean research 
versus others, it is still a small amount. The Navy, I do not 
think, has put as much resources where I think Admiral Gaffney 
says they need to be.
    So how are we going to keep this momentum going so that we 
can start changing our funding priorities in this country to 
really match the challenge that each of you bring? And the 
questions I have about it are to want to know how NOAA, with 
the $224 million that the President pledged, how is that going 
to be used to revitalize not only the structure within, but to 
better coordinate visits and buy equipment that is necessary to 
do the research? Have you focused on that specifically?
    Dr. Baker. Congressman Farr, thank you for that question, 
and thanks for your leadership in the oceans arena and for the 
National Oceans Conference. I think it was a pivotal activity 
for getting commitment from a variety of stakeholders, 
including the Administration.
    The largest amount of money that was identified at the 
National Ocean Conference was $194 million to build sustainable 
fisheries, and the largest part of that, about 75 percent, is 
aimed at providing for us new, very capable fishery vessels 
that would replace the more than 34-year-old vessels which we 
currently have in NOAA so that we can improve our stock 
assessment and fishery research, a key element of building 
sustainable fisheries. The acoustically quiet ships are going 
to be a very important part of that.
    That was an important new commitment. We have been trying 
for several years now to get the Administration to commit to 
new seagoing capabilities for NOAA. This will be the central 
piece of that. We will be doing this design. We are doing 
design in conjunction with experts from the Navy, with experts 
from abroad, so that we have the best possible activity there. 
The fisheries vessels were the biggest piece of the commitment.
    We also have a commitment for new ocean technology to 
expand our deep sea exploration for ocean monitoring, for 
navigational charts. As you remember, there were nine specific 
initiatives that were identified, and I think we got a good 
start in each of these. But I think also, very importantly, at 
the conference, the President committed to bringing together 
all of the Cabinet agencies that are responsible for oceans 
issues to report back to him in 1 year about how we were 
cooperating to keep the momentum going. And I think that, 
together with the passage of the Oceans Act, will provide us 
the context to work in the Federal Government and the private 
sector to keep this momentum going on the ocean. So I think we 
have a very good start here.
    Mr. Farr. Dr. Colwell, at NSF, a part of your testimony was 
sort of all the needs that need to be looked at. Do you see a 
shifting of priorities to address those needs and the funding 
at NSF?
    Dr. Colwell. I think there is a need at NSF to be more 
heavily investing in environmental research overall, and 
certainly the oceans are a major part of it. But let me point 
out that I think what is happening in recent years is that 
there is a clear set of evidence that demonstrates the 
relationship of human health to the health of the oceans and to 
ocean events. That is, by being able to measure sea surface 
temperature, to correlate sea surface height, temperature, 
nutrients, we are better able to show a relationship, for 
example, to toxic algal blooms, to microorganisms that may 
cause human disease.
    And so, as we improve our ability to develop predictive 
capacity for demonstrating this very close linkage to human 
health, as well as economics, through fisheries and so forth, I 
think a more dramatic case can be made for increased resources; 
and NSF certainly supports expanded research.
    Mr. Farr. Admiral Gaffney, thank you for your leadership in 
being able to host this conference at the Naval Postgraduate 
School at Monterey. I was really proud and pleased that that 
was the venue.
    However, I have to tell you that I am a little concerned 
because the language was inserted in the bill that we passed 
yesterday that excludes all military operations, I think it 
says specifically all Navy military operations and training 
measures, from consideration by the Ocean Commission. It 
specifically moves the Navy out. And I am wondering if you 
think that that is going to hinder the ability for the 
Commission and the Navy to move toward the things that you said 
need to be addressed?
    Admiral Gaffney. No, sir, I do not think it will.
    In the research area and in the collection of oceanographic 
information in an operational sense, we are so tightly coupled, 
these agencies, the agencies at this table and others, and we 
will stay coupled just to survive so we can leverage each 
others' dollars and do what we need to do, that we will by 
necessity continue to work regardless of what happens. So I 
think we will do just fine.
    We have other mechanisms. The people seated in the back 
four rows here that actually get their hands dirty with 
oceanography talk to one another all the time without any help 
from the people seated at this table, and they will continue to 
do that by the best people performing and bringing the right 
critical mass of money together to get things done.
    Dr. Colwell. May I add just a comment to that which you 
pointed out very succinctly, Mr. Farr; that there is 
insufficient funding?
    Let me note that NSF now provides more than two-thirds of 
all the Federal resource support for the Nation's universities 
and ocean research institutions. Clearly, an increase in 
funding is necessary.
    Mr. Farr. I appreciate that. But of your total funding, of 
your total pie, of outflow, what is the percentage of ocean 
compared to----
    Dr. Colwell. I will have to get back to you on that, I am 
not sure.
    Mr. Farr. When you compare it to all the ocean funding. 
Because this is the problem. We have always said we have 
committed much more. We argued the space station last night. 
Space station has more funding than all of the program.
    Dr. Colwell. I think as a Nation we need a greater 
commitment.
    Mr. Farr. So what you are talking today is we need a space 
station for the ocean.
    Dr. Colwell. I would agree, in general.
    [Information submitted by Dr. Colwell follows:]
----------

                  FUNDING FOR OCEAN SCIENCES RESEARCH

    The National Science Foundation provides most of its 
support for ocean sciences research through the Division of 
Ocean Sciences (OCE) of the Directorate for Geosciences (GEO). 
In FY 1997, OCE's budges totaled $200 million, approximately 8 
percent of the Research and Related Activities (R&RA) Account. 
Total ocean sciences support for the Foundation, including 
funding through the Office of Polar Programs and the 
Directorate for Biological Sciences, equaled approximately 10 
percent of the R&RA Account in FY 1997.

    Dr. Baker. Mr. Farr, I am not sure I would agree with that 
exact statement, that we need a space station for the ocean, 
although I agree with the amount of funding. Maybe that is the 
point you are making.
    Mr. Farr. Well, the point is exactly, you caught it, the 
emphasis and the concern and the passion for putting money into 
research in the ocean. We can do it, I think, more cleverly. I 
think that the space station has international collaboration, 
which is something else we support.
    My last question, back to Admiral Gaffney, does the Navy 
support the exemption that was in the oceans bill?
    Admiral Gaffney. I believe that the Navy does. I am not an 
expert on that, I will have to admit, sir, but it is my 
understanding that the Navy does support the exemption that is 
in the legislation. But I am not sure it is an issue for this 
particular group of people in this room. We will work together. 
We will take a leadership role.
    If I can go back to your question about funding, I will 
give you a little personal example. I raised my right hand and 
went to the Naval Academy in 1964, and basic research, Navy 
basic research, which started this whole basic research out, by 
the way, at the end of World War II, was $2.2 billion in 
today's terms. Basic and applied research, I am sorry. Basic 
and applied research. Today, it is .8 billion in today's terms.
    Now, in the past few years, despite that decline, we have 
given most favored nation status to the ocean sciences, ocean 
and related sciences; ocean remote sensing, marine meteorology, 
that all work together. But if we don't get some growth, if we 
don't turn up that curve, as has been proposed by Secretary 
Dalton, to get that turned around the other way, then we are 
going to be in worse trouble than we are today. And I think 
that we will also start to disincentivize people from getting 
into the research sciences as a career in the Nation.
    Mr. Farr. One of things I thought was very interesting, in 
talking to Dr. Ballard about the Jason Project, which the Navy 
supports, in fact, its largest Federal funding comes from the 
Navy, but Dr. Ballard said that the majority of the money that 
Jason raises comes from American corporations. And I asked why 
would they put so much money, these are millions and millions 
of dollars that are put into this project, and he said that 
some of the businesses in this country really understand the 
need to have ocean research. We need the science, we need the 
technicians, and they are not being produced because there is 
not enough ground interest. And the Jason Project certainly has 
been able to bring that around.
    I have been always accused of being a big spender. If I can 
be a big spender in the ocean, I would love that title, and I 
would try to support more and more efforts to get money to the 
entities that are going to do good work. Thank you.
    Thank you, Mr. Chairman.
    Mr. Saxton. Mr. Delahunt, do you have some questions?
    Mr. Delahunt. No, I don't have any questions. I would just 
make one comment, Mr. Saxton, listening to both you and to Mr. 
Farr and the testimony.
    I think that if the public awareness is such that they can 
easily and readily understand the potential benefits of ocean 
research and what is occurring today, that the funding for the 
technologies for which you have called this hearing--I think 
there would be great public pressure to secure that funding. 
And I think that the community at large, the stakeholders in 
that community, really have an obligation.
    You have two tremendous advocates here in Mr. Saxton and 
Mr. Farr. But if you have a capacity to transmit the potential 
to the public at large, to the American people, the funding 
will be there.
    Mr. Saxton.  Thank you very much, Mr. Delahunt.
    Let me ask one final question for the record. The 
administration has announced that it intends to build at least 
three new fisheries research vessels. The assumption seems to 
be these vessels will be built with government funds and owned 
and operated by the government.
    A recent report prepared by the Office of Management and 
Budget praises the design of the vessels, but raises 
significant questions about whether these are the most cost-
effective alternatives for providing the necessary fishery 
data. The report also raises significant questions about 
whether NOAA will fully use the technological abilities of 
these ships and whether it generally uses the best available 
technology when conducting fishery research.
    Will the administration look at the build and charter 
contract operations or contracts for data to meet the fishery 
research needs? How does NOAA intend to assure the use of best 
available technologies in fishery research?
    Dr. Baker. Congressman Saxton, we are very concerned about 
getting at the most cost-effective way of doing business at 
NOAA. We have not committed to any particular way of getting 
that capability. The thing we have focused on is the 
capabilities that are required, the acoustically quiet 
capabilities.
    But at the moment, whether we build and charter, whether 
private industry offers this, whether it is something that is 
government owned and operated is something that has to be laid 
on the table and worked out in terms of cost-effectiveness. All 
of this is open. We have not made any commitments to the way we 
would do that.
    All we are looking at, at the moment, is the scientific 
capabilities, and we will make sure we work with you and the 
private sector to provide the most cost-effective way of 
getting the capabilities that we need.
    Mr. Saxton. Well, thank you very much.
    I would just like to make one final comment. The exemption 
in the Oceans Act for exemption for operation and training, 
Admiral Gaffney is the Chief of Naval Research, and we would 
just like to point out that he did not seek to be exempt. Thank 
you.
    Dr. Baker. Congressman Saxton, let me answer one question 
of Dr. Delahunt, who mentioned the public education aspect of 
oceans. I think it is absolutely critical, and I wanted to say 
the Woods Hole Oceanographic Institution has done a wonderful 
job of public outreach, which is done also by the Scripps 
Institution of Oceanography, and some of the other academic 
institutions, has been a very important aspect of public 
outreach.
    And we look forward to working on the Federal side with our 
counterparts in the academic community to get this public 
outreach and enhance it, as you say. I think it is a critical 
point.
    Mr. Saxton. One follow-on question. The report that was 
recently completed for the Office of Management and Budget 
noted the need to better integrate fisheries and oceanography 
research. These two areas of research have been conducted 
largely separately over the last 20 years. To manage fisheries 
wisely, it is becoming clear that we need to understand the 
physical systems in which those fish live and the 
interrelationships between species, particularly the predator 
and prey relationships. Just counting fish is no longer 
sufficient.
    How can we improve the interaction and our knowledge 
thereof between fisheries scientists and oceanographers?
    Dr. Baker. Congressman, this is a very important aspect of 
fisheries, and we have some very nice joint programs with the 
National Science Foundation and NOAA. There is a program called 
the GLOBEC, the Global Ecosystem Study, where, in fact, we are 
looking at how all of these factors interact; and then there is 
a NOAA-led program called FOCI, Fisheries Oceanography 
Cooperative Investigation, that is looking at the impact of 
climate on fisheries.
    And, in fact, as we look at salmon migrations right now, 
they are very much impacted by these long-term changes in the 
north Pacific Ocean. And through these programs, GLOBEC, FOCI 
and other related programs, we are starting to get some 
understanding of how the physical and chemical aspects of the 
environment affect the ecology. It is an important, complex 
aspect of fisheries, and I think we have made a good start, 
and, hopefully, some of this new funding can be applied there.
    We are looking forward to the leadership of Dr. Colwell, 
who is a person who has been a scientific leader in these 
areas, as she directs the foundation to help us move these 
programs forward.
    Mr. Saxton. Well, thank you very much. I would like to 
thank all of you for your testimony this morning and for your 
statements. We appreciate very much that you are here. Members 
may have some additional questions for the witnesses, and we 
ask that you please respond in writing. The hearing record will 
be held open for that purpose. Thank you very much for being 
with us.
    [The information referred to may be found at end of 
hearing.]
    Mr. Saxton. Now, let me introduce our second panel. Panel 
two, we have Dr. Charles Kennel, Director of Scripps Institute 
of Oceanography; Dr. Gagosian, who opened our hearing this 
morning, of the Woods Hole Oceanographic Institution; Admiral 
James Watkins, President of the Consortium for Oceanographic 
Research and Education; and Dr. Fred Grassle, Director of the 
Institute of Marine and Coastal Sciences.
    And let me remind you of our 5-minute rule, for purposes of 
moving the hearing forward. I am going to leave the chair for a 
moment and ask Mr. Farr if he will please take over.
    Mr. Farr [presiding.] Dr. Kennel.

  STATEMENT OF CHARLES KENNEL, DIRECTOR, SCRIPPS INSTITUTE OF 
                          OCEANOGRAPHY

    Dr. Kennel. Mr. Chairman, I want to thank you for the 
opportunity to testify. I am the new, somewhat wet-behind-the-
ears Director of the Scripps Institution of Oceanography in La 
Jolla, California.
    When NOAA makes its weather forecasts that reach almost 
every home in the United States, they rely on a whole variety 
of observing techniques, mostly of the atmosphere, including 
balloons, aircraft, radar, ground measurements, and satellites. 
They integrate all of these observations, and feed them into 
the most advanced computer models available.
    And when NOAA makes forecasts that extend beyond 2 days, it 
has been known for the last 30 years that global coverage is 
needed. So now it is time for the community to move forward, to 
go from forecasts of 5 days to forecasting next year's weather 
and, ultimately, the climatic conditions of tens of years from 
now. As we do that, a broader range of physical effects and 
scientific issues will need to be included in the observing 
strategy that started with the weather.
    Now, scientists have known for more than a century, that 
the ocean is the primary driver of climate through its 
interaction with the atmosphere. Now the public understands 
that in a way that they never did before.
    The 1997-1998 El Nino led to an understanding in the minds 
of the average person that events in the middle of the tropical 
ocean actually have an important effect on their day-to-day 
lives. This is new public understanding. And we believe that 
this new understanding can be translated into the support 
needed as we develop an integrated observing strategy to 
predict climate over a longer period of time.
    What we need right now is a strategy to get started. We 
know some of the things that the strategy would have to 
achieve. It would have to integrate local measurements in the 
ocean and of the ocean with space-based measurements. The 
space-based part of the integration has already begun with an 
international process through the Committee on Earth 
Observation Satellites.
    If we had the beginnings of our strategy in place, we would 
also be able to identify those areas of critical technology 
development that we could focus on to increase the capability 
of and lower the cost of the integrated system. And we would, 
at the same time, identify those variables--we can identify 
some now--which need long-term monitoring.
    Finally, we would begin to relate these two developments to 
the dramatic improvement in climate models and computing power 
that is needed and possible. There are new initiatives at the 
National Science Foundation and the Department of Energy being 
contemplated to address this problem.
    I would like to point out from a recent visit to Japan, 
that they have developed a very impressive Frontiers program 
that links together their marine agency, their space agency, 
and their universities to develop and devote major computing 
power to an integrated observing strategy for the climate.
    As has been mentioned earlier many times, it is essential 
to improve, strengthen, and direct in a more focused way the 
cooperation and the coordination of the activities amongst 
government agencies and institutions. I think the beginning of 
a clear strategy of how to get started at the national level 
will enable us to show leadership on the international level. 
So the strategy and getting started is very important.
    The first thing we need to do is to integrate the various 
ocean observing techniques. The first poster shows some of the 
many different ways of observing the ocean that have been 
developed, many of them over the last 10 years. We now need to 
think about how to meld this capability into a system. We will 
need leadership, cooperation, and coordination.
    We need to support research that demonstrates the value of 
integrating observations from different sources into computer 
models with the goal of predicting climate. Scripps is involved 
in three such experiments. One is an experiment on acoustic 
tomography, in which we relate these results to satellite 
measurements from TOPEX-Poseidon, and the combination of the 
two measurements creates an improvement.
    You have already heard of the Global Ocean Data 
Assimilation Experiment, initiated by the international 
satellite community to relate satellite and in situ data to see 
the extent to which the combination will improve predictions of 
ocean state.
    And Scripps itself, with the strong support of the National 
Science Foundation, has been involved in an experiment called 
the Indian Ocean Experiment. This is a comprehensive experiment 
involving the efforts of 25 nations, ships, balloons, 
airplanes, and satellites. Their data will be combined into a 
single information stream that will be available to all.
    Finally, I think we must support the basic technology 
development of our observing systems, including the NOAA global 
drifting model initiative, DOE's comprehensive earth modeling 
efforts, and the Navy's strong support of technology 
development.
    In conclusion, the most important question in environmental 
science is ``What is going to happen to me?'' And until we can 
help you give scientifically reliable answers on that issue to 
your constituents, they will not know whether to repair their 
roof because an El Nino is coming or what to believe about 
scary issues, like the greenhouse effect.
    Mr. Chairman, we have many of the tools at hand to start 
improving our answer to that question. We need leadership, a 
strategy, and investment in those things that pull the system 
together. Thank you.
    Mr. Farr. Thank you very much, Dr. Kennel. We will be 
asking questions after the panel finishes.
    [The prepared statement of Dr. Kennel may be found at end 
of hearing.]
    Mr. Farr. Dr. Gagosian, welcome back.

      STATEMENT OF ROBERT GAGOSIAN, DIRECTOR, WOODS HOLE 
                   OCEANOGRAPHIC INSTITUTION

    Dr Gagosian. Thank you, sir.
    Mr. Chairman, Mr. Farr, Mr. Delahunt, thank you for 
inviting me here to speak with you about deep sea research. As 
you could see from the video presentation, I tried to give you 
some examples of how we get to the deep sea and what we see 
when we get there. Now I would like to address why it is 
important to the Nation that we continue to be there and what 
is needed to continue to improve our research, monitoring and 
assessment capabilities.
    Through our association with, and the long-term investments 
of, the Office of Naval Research, the National Science 
Foundation, and the National Atmospheric and Oceanic 
Administration, we have made significant scientific advances in 
understanding the ocean's processes and properties. With that 
investment, we have been able to support an infrastructure for 
ships, vehicles, instrumentation, education programs and, above 
all, human talent that is the envy of the world.
    But what do we mean by the deep ocean? Why do we want to do 
research in such a formidable and hostile place? The deep ocean 
is a world of slopes and canyons, of abyssal plains with depths 
greater than 9,000 feet, and of midocean ridges rising as much 
as 12,000 feet. These ridges are linked around the world into a 
40,000-mile underwater mountain range, the longest one on 
earth, 2\1/2\ miles beneath the sea. There are approximately 
2,000 sea mounts on the sea floor, which rise from 3,000 to 
10,000 feet. There are also valleys and trenches that vary to 
extreme depths. The deepest spot in the ocean is about 7 miles, 
roughly the distance you see when you look down from an 
airplane. Yet only a few percent, as Admiral Gaffney pointed 
out, of the ocean floor has been explored.
    Now, there are many reasons why we go and must continue to 
go to the deep ocean. It is where our planet earth is presently 
being formed, contorted, stretched and quaked right now. A 
clear example is the tsunami that recently struck Papua, New 
Guinea, that was caused by an offshore earthquake.
    Samples of ocean sediments, which contain the shells and 
skeletons of previously living ocean creatures, provide us with 
a history of previous climates and life forms. The deep ocean 
is not quiet, nor is it unchanging. Deep ocean currents hold 
the key to understanding the workings of the global conveyor 
belt that carries warm surface water to the north polar region 
in the Atlantic and returns cold water to fill the deep ocean 
throughout the world. Understanding this circulation is 
critical to our understanding changes in the earth's climate, 
which will ultimately lead us to predictions of what 
environmental changes the ocean can sustain from the 
atmosphere, such as carbon dioxide input.
    A very new and exciting application of deep sea observing 
is in the forensic study of modern shipwrecks. As noted in the 
video presentation, our institution has just completed a task 
for the British Government by mapping the remains of the M/V 
Derbyshire, which sank in 14,000 feet of water in 1980. The 
Derbyshire is one of 120 bulk carriers lost at sea since 1980, 
with the aggregate loss of 1,300 lives. Our equipment and 
talented oceanographers determined why and how it sank, which 
led to recommendations on how to prevent future failures on 
these ships, thus potentially saving many precious lives and 
millions of dollars. The results of this work were not only the 
subject of a TV documentary, but were acknowledged by the 
highest levels of the British Government.
    I would be remiss, Mr. Chairman, if I did not speak about 
one of the most important discoveries of this century, and that 
is the world of the hydrothermal vents, which you saw on the 
video I presented. These vents not only churn hot seawater 
through them and alter its chemistry, but also provide habitats 
for amazingly abundant exotic life forms, as you saw. Ancient 
as this life may be, its existence provides a significant leap 
in our knowledge about life itself. Two-thirds of these life 
forms have never been observed before. Perhaps more 
importantly, what this may likely provide is the key to our 
definition of the origin of life on our planet, and the 
possibility of life on others. The environment is also where we 
believe new pharmaceuticals and biotechnological opportunities 
exist.
    I will close with some remarks about the future, 
particularly with regard to human occupied vehicles. The Navy's 
deep submersible Sea Cliff has just been transferred to the 
custody of the National Deep Submergence Facility at Woods Hole 
Oceanographic Institution. As a matter of fact, it should be 
crossing the Bourne Bridge right now on a flatbed truck as I am 
speaking.
    It is understood that the Federal agencies intend to 
underwrite the expense of an engineering study that will 
analyze the cost, feasibility and technical alterations 
required to merge the most capable features of Sea Cliff and 
Alvin. Depending on what the engineering studies produce, and 
the availability of funds, we hope this will lead to an Alvin 
upgrade to give it a 7,000-meter depth capability, almost 4\1/
2\ miles. It has currently a 4,500 meters capability. This 
would give our human occupied vehicle access to 98 percent of 
the ocean bottom. It would also give the United States the 
international leadership role in HOV exploration, something 
that we lost 10 years ago.
    In summary, Mr. Chairman, that is how I see where deep 
ocean science has been and where it should proceed. We need to 
capitalize and build on the expertise of today's people and 
technology to produce a robust capability for tomorrow. There 
is a tremendous amount we still do not know about our own 
planet. We have the minds, the questions and the technology at 
our doorstep.
    If the last 30 years is any indication, future discoveries 
will have great benefit to the Nation and the world. If we want 
to manage, protect, and use our planet wisely, we need and must 
understand how it works. We are ready to go, we need a national 
plan to accomplish this, and we need your support and help. 
Thank you.
    Mr. Saxton. [presiding.] Dr. Gagosian, thank you so much 
for your very enlightening testimony.
    [The prepared statement of Dr. Gagosian may be found at end 
of hearing.]
    Mr. Saxton.  I would like to skip over Admiral Watkins at 
this point, if I may, and introduce my friend and one of my 
heroes, Dr. Fred Grassle, from New Jersey, and let me just say 
a word to Mr. Farr and to Mr. Delahunt about why Fred Grassle 
is my hero.
    Fred is a guy who seems to be able to make things happen 
that wouldn't normally happen. Fred acquired an old--it was 
Rutgers University, and through Fred's leadership and a couple 
of other people, they acquired an old Coast Guard facility at 
the end of an old road called Seven Bridges Road, on a point of 
land adjacent to Little Egg Inlet and at the mouth of the 
Mullica River. They transferred it into a fisheries research 
facility, transformed the upstairs into a dormitory, and became 
so busy they subsequently built a dormitory at the other end of 
Seven Bridges Road to house the multitude of students that 
became interested in the facility.
    They decided they needed to look under the ocean outside of 
Little Egg Inlet and established the first permanent undersea 
observatory in the world. They got private industry to help 
fund it. They got Bill Hughes and I to become involved in the 
issue, and now we are among the proudest to have in my 
district, at the end of Seven Bridges Road, this facility known 
as LEO-15 and the research facility.
    And I am very proud to be able to introduce Fred Grassle, 
one of the people that made it all happen. Fred.

   STATEMENT OF J. FREDERICK GRASSLE, DIRECTOR, INSTITUTE OF 
                   MARINE AND COASTAL SCIENCE

    Mr. Grassle. Thank you, Mr. Saxton, for those very kind 
comments. Members of the Subcommittee, thank you for inviting 
me to testify on the status of oceanographic monitoring 
assessment. I particularly want to thank the chairman for his 
long-standing interest in the subject.
    On land we take for granted continuous, real-time, high 
resolution information provided by our senses; what we see, 
hear, or smell. Our presence in terrestrial environments 
provides us with a high proportion of the information needed to 
assess fundamental environmental and ecosystem processes. We 
are not so fortunate when we try to predict ocean processes, 
lacking the common-sense view of our environment that is 
readily available on the land.
    The ocean is a relatively unknown, dangerous and 
unpredictable place. The livelihood and security of nations has 
long depended on their seafaring abilities. Efficient, safe sea 
transportation is a requirement for the economic success of our 
ports and coastal economies. We need better prediction of 
coastal hazards, including storms, coastal erosion events, 
harmful algal blooms, and oil spills, or even when and where to 
spend a pleasant day fishing or swimming. Naval commanders need 
to understand as much as they can about their surroundings, as 
you heard from Admiral Gaffney, at all times, especially in 
initially unfamiliar environments.
    Natural variability is poorly understood so that it is 
relatively difficult to measure the effects of pollutants or 
other human-induced change. Ocean ecosystems are said to 
provide the greater part of the services needed to sustain our 
society, yet the mechanisms controlling the delivery of these 
services are poorly known. We have made a commitment to obtain 
high resolution, long-term measurements from a broad corridor 
of marine and coastal habitats from the watershed of the 
Mullica River to the deep sea, as you just heard, using a 
series of long-term ecosystem observatories or, LEOs, off New 
Jersey.
    Our most intensive study has been at LEO-15, a site at 15 
meters depth on the inner part of the continental shelf off 
Tuckerton and Little Egg Harbor, New Jersey. This has been a 
joint project with Chris von Alt's group at Woods Hole 
Oceanographic Institution and industry, as you have heard.
    Just as meteorologists monitor present weather conditions 
and use a combination of observations and computer models to 
generate weather forecasts, Rutgers oceanographers are using an 
observation network to monitor the coastal ocean and computer 
models to forecast its daily changes. The observing system is 
serviced by an electro-optical cable that runs under the 
coastal waterway and under the ocean floor to connect two 
underwater nodes to the Rutgers University Marine Field 
Station, and from there to the Internet, where it is available 
to all.
    The system transmits video, sound and data on light, 
temperature, salinity, currents, wave height and period, 
sediment transport, plankton blooms, and a broad variety of 
chemical characteristics from numerous sensors that move up and 
down in the water or are plugged into the nodes at the bottom. 
Docking stations, developed at Woods Hole, allow autonomous 
robotic vehicles to sample along transects away from each fixed 
site and to return to download data and repower batteries.
    You saw this vehicle in the video from Woods Hole. 
Yesterday, the REMUS vehicle did a 60-kilometer run, measuring 
currents, temperature, salinity and depth over the whole 
distance of LEO-15. It has repeatedly docked and sent data back 
to land and over the Internet at LEO-15 during the past 3 
weeks.
    Boats and divers visit the site on days when the weather is 
good, and the satellite dish provides broad coverage of sea 
surface characteristics, temperature, ocean color, and surface 
roughness. Shore stations, using high-frequency radar, provide 
patterns of surface currents and provide data on weather in the 
immediate vicinity of LEO-15.
    I have attached a schematic representation of LEO-15 to my 
testimony, and I hope you all have copies of that.
    We expect to add additional observatories at intervals 
across the continental shelf and into the deep sea. Additional 
observatories along the coast, such as that proposed off 
Martha's Vineyard, will add another dimension to what we hope 
will eventually become a global system.
    This work has been supported by the National Science 
Foundation, NOAA, the National Undersea Research Program, 
Office of Naval Research, and the last year by three grants 
from the National Oceanographic Partnership Program. Our most 
recent grant will transfer the lessons learned from LEO-15 in 
1998 and 1999 to a program using a combined observation and 
modeling system to predict harmful algal blooms in the Gulf of 
Maine in the year 2000.
    We can provide the observations needed to maintain 
ecosystem services from the ocean, enrich science education in 
our schools, and bring a greater consciousness of the ocean 
into our daily lives. I strongly urge you to support, through 
individual agencies and the National Oceanographic Partnership 
Program, the further development of a national and global ocean 
observing system. Thank you.
    Mr. Saxton. Fred, thank you very much.
    [The prepared statement of Mr. Grassle may be found at end 
of hearing.]
    Mr. Saxton. And now we will go to our cleanup man, Admiral 
James Watkins.

     STATEMENT OF JAMES WATKINS, PRESIDENT, CONSORTIUM FOR 
              OCEANOGRAPHIC RESEARCH AND EDUCATION

    Admiral Watkins. Thank you, Mr. Chairman; thank you, 
members of this Committee, for inviting me here today.
    As you know, Mr. Chairman, I am President of the Consortium 
for Oceanographic Research and Education, the acronym we call 
CORE, consisting of 52 of the Nation's marine institutions. We 
represent those institutions here in Washington and have also 
initiated or undertaken a number of national projects, 
including the National Ocean Sciences Bowl, and we won the ONR 
bid for the program office for helping them run the National 
Oceanographic Partnership Program.
    Previous witnesses have described to you several 
outstanding examples of the kinds of capabilities we have or 
will soon have and some of our priorities to better understand, 
monitor and predict the greatest natural force on earth. They 
have told you what we need to do and why. What I would like to 
do today is to provide a conceptual road map for how to do what 
they suggest; that is, how we might transition from the ideas 
of our researchers, working with the decisionmakers here in 
Congress and the administration, to an actual system which 
integrates our national needs and priorities.
    We have come to an important juncture in the development of 
ocean science. More than ever our progress is limited by the 
lack of important ocean observations. As the Ocean Studies 
Board of the National Research Council has clearly stated in 
their new report, ``Opportunities in Ocean Sciences: Challenges 
on the Horizon,'' the questions of marine resource management, 
climate prediction and the role of oceans in human health 
require extensive and long-term observation of the oceans on 
global, regional and local scales.
    Mr. Chairman, I would like to submit a copy of this report 
for the record.
    Mr. Saxton. Without objection.
    [The information referred to may be found at end of 
hearing.]
    Admiral Watkins. The merits of a variety of independent 
observing and predictive system proposals, many of which were 
presented here today, are well understood and accepted. But 
what we do not currently have is the strategic framework within 
which we can chart a course to final realization of an 
integrated ocean observing and predictive system.
    We need to couple an analysis of the mission 
responsibilities of the various Federal agencies with our 
current and planned observational capabilities to determine the 
best opportunities for predictive success. From this analysis 
we can build a plan detailing exact requirements for a 
comprehensive ocean observing system and address questions on a 
variety of time and space scales, assimilating, infusing 
information from these various sources, much like the well-
established practices of the defense intelligence community. 
Analysis and interpretation would then provide the products 
which we will rely on for better prediction and decisionmaking.
    Let me give you an analogy. Early in the cold war, from 
many prior years of ocean research in deep ocean sound 
propagation, we developed a highly capable and integrated 
system called SOSUS, the sound surveillance system. This is a 
giant series of listening arrays in the Atlantic and Pacific, 
which eventually contributed significantly to our winning the 
cold war. Observations from these fixed arrays were highly 
integrated or fused with multisource observational and 
predictive data from satellites, ships, aircrafts, human beings 
and other sensors over a wide geographic area.
    Notable is, one, the definition of a national need, with a 
full understanding of the cost and benefits; two, the 
commitment to develop a system, not just a collection of parts; 
and, three, the contribution of all sectors, each bringing 
their own strength to meeting a complex challenge; and, four, 
predictions with high probability of success.
    The resultant $16 billion investment was repeatedly 
justified.
    I should also note that the first SOSUS array went from the 
blackboard in 1949 to full-scale operation in 1952, only 3 
years later, and at a $1 million initial investment.
    Let me now shift to the graphic, which the Committee 
members have been provided, and the graphic is displayed up 
there on the first easel. The graphic is an attempt to place 
into context what I would call a strategic framework for ocean 
predictions. You will see in the center of that framework what 
is called the Ocean Observational System. It is a meld of 
sensors and platforms, including remote sensing, that would be 
satellites, SOSUS, aircraft; fixed sensors and platforms, that 
is the TOGA mooring that gave us additional predictive 
capability for El Nino, the LEO-15 we just heard about, and 
seismometers. Then there are drifting and unmanned sensors and 
platforms, including surface drifters, autonomous underwater 
vehicles, and remote operating vehicles. Then there are ships 
and submarines, called the UNOLS fleet, which is the academic 
fleet, University National Oceanographic Laboratory System, the 
deep submergence vessels, vessels of opportunity, which might 
include the last of the nuclear submarines that have the 
capability of going under the ice and can explore areas of 
surface that no other platform and no other sensor can reach.
    Then, inside those, are the information exchanges, with 
each of those, what I would call subsystems of a larger system, 
for data access, archival, storage of information, data 
assimilation and computation. Each of those adds value in 
itself to our society.
    But what we miss, then, is taking that and moving it into a 
product and benefit, which you see on the right side of my 
chart, which goes through what I would call a virtual common 
data center, where all this is brought together in analysis and 
interpretation and doing the kinds of things that the Congress 
challenged the National Ocean Research Leadership Council to 
come up with.
    They told us, the Congress told us to address that issue 
and try to do the analysis and interpretation to give us the 
products and benefits of climate forecast; sustainable 
resources which would be the fisheries, as an example; human 
health, which Dr. Colwell talked about this morning; military 
readiness, which is an essential part of it.
    And by the way, while I have the greatest respect for 
Admiral Gaffney, I think it is a mistake to leave the Navy out 
of anything, to exclude them from anything. They are a key part 
of ocean science and technology. They used to be 40 percent of 
the entire ocean science investment in the Nation. They have 
now gone to 20 percent. And to leave them out is absolutely 
preposterous. What we heard from Admiral Gaffney was a work-
around; that despite what exclusion you put in, we are going to 
work it any way. That is just an aside, Mr. Chairman.
    At any rate, what we need now, though, you have seen this 
graph, and on the left is the mission statement for the Nation, 
and that doesn't come out of my head. That is what the Congress 
told us in the National Oceanographic Partnership Program, to 
horizontally integrate these agencies by national security, 
economic development, quality of life and education. And that 
is what we are doing. And those cut across all lines.
    And so, therefore, for the first time, we have a thematic 
approach to horizontally integrate research and development in 
this Nation in the oceans, and that is a paradigm for any other 
scientific endeavor, in my opinion. So we have on this chart, 
then, what I would call the total framework for ocean modeling 
and predictions that can really give society something new.
    Now, what we need from the Congress is your assistance to 
move aggressively in this framework to an integrated strategic 
science and technology plan. We in the academic community are 
asking the Congress to task the administration to work with 
them to develop such a strategic plan in the form of a 
comprehensive and integrated ocean observing system that can 
lead to more useful products and benefits for all, as shown on 
my chart.
    We believe, in addition, that to carry this out the 
Congress should request the administration to employ the 
National Ocean Research Leadership Council, consisting of the 
leaders of each of the nine Federal ocean research agencies, to 
define components, priorities, research requirements, and some 
sense of time lines that might be anticipated. This plan should 
show how an integrated system would optimize the Federal effort 
to meet specific objectives within those time lines, making 
clear the products and benefits expected. The plan should 
address the involvement of other maritime nations with whom we 
share mutual objectives and can expect some equitable share in 
the enhanced investments which will be required. This plan 
should build upon the volumes of well-thought-out agendas 
developed by the individual agencies, the National Academy of 
Sciences and other national and international bodies in past 
years.
    Mr. Chairman, this will certainly require both Congress and 
the administration to come together to make some new resources 
available. I think so often when we talk about partnerships, we 
forget the fact that we need a partnership between the Congress 
and the administration on this issue. We cannot do it alone. 
There has to be close leadership cooperation here to try to set 
some new standards here for this kind of integrated science and 
technology plan.
    So often we talk about, well, the Federal Government has to 
have partnerships with academia and so forth. We need a 
partnership with the Congress on all this. As you know, we have 
tried to work that way through the National Oceanographic 
Partnership Program and its development. We need to continue 
that, with perhaps joint hearings up here between the Resources 
Committee, the Science Committee, the National Security 
Committee, not to talk about budget, not to talk about program, 
but to talk about strategy. What are we doing? How are we 
pulling this together? So when the agencies come through with 
their budgets, you can see them inside a broader strategy. I 
think that is a worthy objective that the Congress should set.
    So on the horizon we can envision greatly enhanced coastal 
weather and longer-term climate forecasting, more efficient 
shipping, more informed decisionmaking for difficult 
environmental and resource management questions, just to name a 
few benefits.
    For the last 50 years of this century we devoted our 
national attention on outer space, and properly so. We need to 
focus our attention in the next 50 years, in the next century, 
to understanding how inner space, the ocean, can assist mankind 
in meeting its burgeoning challenges.
    The Congress has already set in place a perfect mechanism 
for implementation of this kind of initiative by creating the 
National Oceanographic Partnership Program. This program 
provides a platform for collaborative work by the U.S., as well 
as international ocean research agencies who are looking to the 
United States for leadership, but they want to know where to 
plug in. They have a place to plug in now, and we have to 
engender that to leverage these dollars.
    There ought to be a 50-50 share line with the United States 
and other nations, and we know how to do that. The academic 
institutions know how to work with them. But we have to have 
the leadership of the Nation, and that includes the State 
Department in S&T and foreign policy. You know, I have been 
clamoring for that, to improve that, and I know the State 
Department has asked the National Academy to come back and give 
them a recommendation, but that is a year from now. We need to 
move it now. We are talking about potentially large investments 
in an ocean observing system globally, and that means we have 
to start now with people involved at the front end of the 
design of such a system.
    Anyway, Mr. Chairman, I hope you will consider my 
recommendations. I look forward to continuing to work with you 
to ensure we are doing everything we can to make wise use of 
the greatest natural resource on earth. Thank you.
    [The prepared statement of Admiral Watkins may be found at 
end of hearing.]
    Mr. Saxton. Mr. Delahunt has some time constraints. Would 
you like to ask a question before you go?
    Mr. Delahunt. No, I don't need to ask a question, Mr. 
Chairman, but I do thank you for the invitation, and I hope to 
participate. It has been very informative, and I particularly 
appreciate the sense of urgency that Admiral Watkins has 
brought, and I think that the ideas forthcoming from all the 
panelists lead me to the same conclusion reached by Mr. Farr; 
that this really is an exciting time.
    And I personally do want to work with Chairman Saxton and 
Mr. Farr and others in these potential breakthrough initiatives 
we are talking about. Thank you, Mr. Chairman.
    Mr. Saxton. Thank you, Mr. Delahunt. I look forward to 
visiting your district this August.
    Admiral Watkins, you touched on a subject that is near and 
dear to the hearts of many of us, in particular Mr. Gilchrest, 
who talks about the diffusion of responsibilities for ocean 
issues, and, in particular, not just between the administration 
and the Congress, but even here in Congress.
    I have forgotten the number, but it is unbelievable. It 
seems to me like there is something like 17 or 18 committees.
    Admiral Watkins. Forty-seven committees, Mr. Chairman; 
forty-seven committees of authorization, appropriation, in both 
House and Senate. Yes, sir.
    Mr. Saxton. That even goes beyond what I think we had 
anticipated. But when we established this Subcommittee, 
Chairman Young was kind enough to agree to the suggestion that 
we ought to have a committee that's named as being responsible 
for the oceans, and finally the title became partly 
subcommittee on oceans.
    So we are hopeful that we will be able to work with the 
House leadership. And we have, under the leadership of Mr. 
Gilchrest, begun to talk about how to or whether it is 
possible, given turf battles, et cetera, to restructure the way 
we do business in the House to focus more clearly on ocean 
issues someplace. And, of course, I think it ought to be here, 
but I am sure everybody has their own idea.
    But it relates very much to the objectives of the National 
Oceanographic Partnership Program. And I guess I would just 
like to ask you each, have your institutions seen a change in 
the level of cooperation subsequent to the establishment of the 
National Oceanographic Partnership Program? Is it working? Does 
it need any refinement, or is it just fine the way it is and 
working well?
    Dr. Grassle.
    Dr. Grassle. I would like to comment on that. In building 
LEO-15, a lot of people were involved. The National Underwater 
Research Program funded a lot of science out there, which 
enabled us to begin to understand the environment well enough 
to really develop the LEO-15 concept. The National Science 
Foundation actually funded the infrastructure of the system. 
But more recently we feel that the possibilities for using 
something like LEO-15 can only be realized through the kind of 
broad partnership that our funding from the National Ocean 
Partnership has allowed us to develop.
    We have oceanographic equipment companies coming down and 
finding out things about ocean instrumentation that is off the 
shelf that we didn't know about, because we are comparing these 
instruments in the field. Any instrument of any sort can be 
plugged into LEO-15 and compared with any other instrument. The 
REMUS underwater vehicle, in its 60-kilometer run yesterday, 
was running the same route that a towed vehicle from a boat was 
running with similar instruments. So we have direct comparisons 
to be made.
    We also had Navy SEALS visiting, just because they were 
curious. They were working with Chris von Alt in another area, 
and they really wanted to see what was happening at LEO-15 and 
were very interested.
    In the education area, one of our grants is in education, 
and we are working with school systems in New Jersey. LEO-15 is 
available on the Web page. That would not have been possible 
without the kind of broad approach to thinking about observing 
systems that the National Ocean Partnership has allowed us to 
develop.
    The Office of Naval Research has been supporting the 
modeling that relates to these coastal systems. And through the 
National Ocean Partnership, we have fully integrated the 
modeling with the observing system so that the models are 
assimilating data, and we are making actual forecasts of the 
ocean. And we were pleased last week that the weatherman in our 
local area, in your district actually, referred to the 
upwelling and what it was like for the people going to the 
beach.
    So I think that the National Ocean Partnership has really 
helped us develop the kind of crosscut all of us envisioned. I 
think I had the opportunity to testify before this Committee 
once before, in discussing something that I know has been 
foremost in your mind, as to how to get crosscutting 
information more available to make decisions about the 
environment. For the oceans, the National Ocean Partnership has 
been an important step in that direction.
    Mr. Saxton. Thank you very much. Anybody else want to 
comment?
    Dr. Gagosian. Mr. Chairman, I would like to make a couple 
of comments with respect to the collaboration. If one looks at 
the list of principal investigators, and the projects they have 
been involved with, and the sums of money over the period of 
time, it is very difficult to do that with just one Federal 
agency. So there is a tremendous leveraging capability that the 
partnership program allows for. And in many ways it is an 
initiation of that collaboration, and I will just give you an 
example.
    The LEO-15 exercises that Fred was talking about has led, 
as he mentioned, to Chris von Alt's work in wanting to 
establish another site on Martha's Vineyard, where there is 
open water all the way to England. The National Science 
Foundation has funded that. On the other hand, there is a 
significant amount of cost-sharing that is involved.
    Because of the success at Rutgers in New Jersey, we were 
able to obtain over a third of a million dollars in cost-
sharing from someone that actually lives on Martha's Vineyard 
who is very interested in this kind of facility being on the 
island. So the collaboration extends beyond the Federal 
agencies and the principal investigators. It actually extends 
to some of the private citizenry.
    And if everyone participates in contributing to these 
projects, the Federal agencies, the private sector, and then 
obviously the scientists and engineers at the different 
institutions, then you really will have a very successful 
program.
    Mr. Saxton. Thank you.
    Dr. Kennel.
    Dr. Kennel. I have a couple of comments. I am too new to 
tell you whether there has been a change, but I will say the 
following: That if you look at Scripps funding in order of 
importance, our funding comes from the National Science 
Foundation, the State of California, the Navy, NOAA, NASA, DOE, 
various other agencies. And the surprising thing to me is how 
distinct the activities are that are funded by each agency and 
how critical they are.
    This diversity of funding has made Scripps into a diverse 
institution, and we have been very pleased with it, but I think 
as we look forward, the community has an important new 
obligation, which is to think about how to construct these 
integrated observing systems, both regional and global. And at 
this point the diversity begins to get in the way--without the 
further coordination that could be provided by an organization 
like the Ocean Partnership Program.
    The things that need to be done are, first, to be able to 
develop a plan, a strategy; be able to settle amongst the 
different kinds of ocean technologies that have been supported 
by different agencies and institutions, how they ultimately 
will fit into at least the first steps of a global observing 
system. How will we reach a decision on how to balance the 
contributions of each of these very capable technologies? In 
light of that strategy, where will we put our technology 
investment funds? Who will be the system integrator? Who will 
do the basic technological studies that would bring forth an 
integration at the technical level, the integration that we 
know that we need?
    So I think it is at this level that partnerships, a strong 
plan and leadership is needed to do those tasks that we cannot 
do by ourselves in the present configuration.
    Mr. Saxton. Thank you very much.
    Mr. Farr.
    Mr. Farr. Well, thank you, very much, Mr. Chairman. I 
wanted to thank both panels. I just got out of a meeting, and I 
had to tell everybody I had to leave because I had four science 
directors, an admiral, a secretary and a president waiting for 
me. So thank you for being who you are.
    I look at today as sort of in two categories. One is the 
existing funding category that comes essentially through the 
public sector, and Dr. Kennel kind of mentioned the State of 
California, the NOAA, the Navy, National Science Foundation.
    Dr. Kennel. Department of Energy, NASA.
    Mr. Farr. Department of Energy and NASA. All of those are 
public-funded entities, taxpayer dollars. And it seems to me we 
ought to be getting--from the importance that the panel has 
told us, we ought to be getting a better share of the pie.
    Then the other side is how do you expand the politics, the 
lobbying effort, the public's interest in making this a 
priority? Really, I think we need to focus a little bit more on 
that.
    First of all, on the public side, I believe that each of 
you have financial officers in your entities. You ought to be 
taking a look at the requirements of that funding and come back 
to us as legislators and show us where the bureaucracy just 
doesn't make any sense, where there is duplication and overlap.
    Secondly, I think we need to have some messages that we are 
not making, and, Admiral Watkins, I was interested in your 
comment on that. Dr. Gagosian talked about all the things we 
needed to do and explore and how we sort of lost the lead. I 
guess it is the Japanese that are really putting the money into 
equipment. We still have the know-how, as I understand, but 
they have the better machinery.
    If we are so unexplored in the ocean, and there is so much 
to learn, and it really has to do with, in a sense, national 
security, knowledge about the planet, why hasn't this moved 
more into a national security issue, particularly in a post-
cold war era, where we are sort of converting to do things we 
need to do? We have not done very much to put the exploration 
into a national security issue.
    Admiral Watkins. No, we have not, Mr. Farr.
    The United States Navy used to command 7 percent of the 
national research budget in the old days when it was $8 
billion. This is 15 years ago. Today it is 3\1/2\ percent of a 
budget which has almost doubled to $14 billion. I am talking 
basic research now of the R&D component, the R component that 
is seldom broken out from D. D disguises the R many times 
because in D you can have prototype development of a new B-2 
aircraft or a nuclear submarine, so it disguises what is in R.
    R is the research component. That is what I am talking 
about. It went from $8 to $14 billion. In oceans it stayed 
constant in constant dollars, and everybody says, well, that is 
pretty good, staying constant in constant dollars. Now we are 
3\1/2\ percent of the investment. That is totally inadequate, 
and we should be building back over the next 5 to 7 years to 
something of the order of $800 or $900 million.
    So we are not talking about billions of dollars, we are 
talking about going up at about $15 million a year, And if they 
have not explained to the Congress how critically important 
this is right now, then we are not very articulate.
    So we have to start growing, and there has to be a deal 
between the Congress leadership and the White House to say, Mr. 
President, if you put in another $250 million over the next 5 
years as a kick-start for getting this thing really going, get 
international cooperation through your Secretary of State at 
the high level, start leveraging these dollars up so we can do 
the kinds of prediction modeling we desperately need right now, 
then we in the scientific community come back to Congress with 
a plan telling you exactly how we are going to spend that money 
in peer-reviewed research that is integrated. We know how to do 
that. And so, that deal has to be made, and we ought to do it 
for the year 2000 budget.
    And the Feds that the come up here today, they have to stay 
within the OMB rules. They cannot come up and demand more 
dollars. So they are going to try to live with what they are 
given, and I understand that. But you-all have to reach beyond 
that and have to help get that leveraged dollar up and have us 
get back to you by the first of next year. So when you open 
again in the new session of Congress, and ask ``where are you 
going to spend the $250 million,'' if you put it in there? We 
will tell you exactly where. It will be valuable all in itself, 
and we know how to do that. We have to be tasked, though. It 
will not come out of the nine Federal agencies. They cannot do 
it.
    Mr. Farr. I understand that, and I accept that challenge. I 
think it is a great challenge. It is one that I accept, and I 
hope we can commit with the Chairman and our Committee to 
accept that.
    My statement back to you is we also need to move this into 
a sense of national security priorities, because if we do not--
I do not mean this black box security, I mean the fact that the 
money around here that is being appropriated still is in that, 
that is where the discretionary dollars are. And we ought to be 
able to move some of those discretionary dollars and make those 
a priority.
    Admiral Watkins. I could not agree more. I think this whole 
issue of national security, unfortunately, has been swept 
somewhat under the rug in the aftermath of the great win in the 
cold war. And while that is a big plus, I think what we did at 
the same time was decide to say deep ocean research is no 
longer necessary, the Russian submarines are not there. And we 
did not pick up on the fact that that is not the only reason we 
do ocean research. It is life. It is full of life, and we need 
to know more about it.
    So the national priority needs to be reestablished. And I 
think everything you mentioned earlier, what we are doing now 
to take advantage of the Year of the Ocean and put all these 
things in place is a critical time to say, wait a minute, we 
have got a new national mission of some import. Whether you 
have the equivalent of the old Joint Committee on Atomic Energy 
up here or whatever you do, you have to do something up here to 
send that signal to the administration as well. And I believe 
we are on the verge of setting a new national priority for 
oceans and how they contribute.
    You heard Dr. Colwell talking about the importance of human 
health and the ocean. We are just beginning to see that El Nino 
has brought a new dimension. I am not talking about biomedical 
research. That will take care of itself. That will be the self-
interest of pharmaceuticals. I am talking about what is the 
impact of temperature growth, whether it is anthropogenic or 
natural, on human health as the population doubles in the 
world? If we do not start that research now, 50 years from now 
we are not going to be in a very good position to deal with 
disease.
    So national priority has to be put on this and at the 
Presidential level and congressional level, both in cooperation 
with each other.
    Mr. Farr. I look forward to working with you and maybe even 
actually shaping that letter. I am writing it as you talk. We 
need to tighten that up and get it out and get our Members 
committed to it now even before the election.
    Then the second part of that is how we sort of increase 
this public buy-in that I think is out there. The excitement is 
there. I watch the kids who when I grew up, you know, the space 
area, you had to get space camp started and we got all excited. 
Now we have the opportunity for sea camps, which I think the 
demand out there is just really keen. And frankly, there are 
more places where we can do those than we can do space camps.
    But Dr. Kennel talked about it had to become personal. And 
how can we start personalizing; how can we take the information 
that you-all are getting and kind of turn that in? I always 
kidded, we have the fleet numerical, the Navy's center for all 
the weather data coming to Monterey. The Navy collects all the 
weather data on the globe, every measurable instrument, and it 
is all fed into Monterey.
    So I said, if you are so damn smart with your big Cray 
computer, why cannot you tell the farmers what the weather is 
going to be like in the Salinas Valley, or why cannot you tell 
the surfers what the weather is going to be like on the coast? 
I said, there are some real commercial interests with what you 
do.
    Dr. Kennel. Let me just say that, first of all, the 
National Oceans Conference did have a personal impact on me. I 
came back to San Diego, and I wore the cap from the conference 
the next day to the cleaner, and the gentleman behind the desk 
said, ``Oh, I see were you at Monterey.'' And I said, ``Yeah.'' 
He said, ``You know. All the fish have gone away. The ocean is 
responsible for climate. And our coastlines are a mess.'' And I 
said--``well, he got the message.''
    In any case, Scripps has a program with regard to surf. It 
is an interesting story. Our program takes the Navy's 
prediction of wave heights on the open ocean and translates it 
into wave action on a kilometer-by-kilometer basis along the 
California coast. And there is a big surfing beach just north 
of Monterey. The Scripps folks came to me one day and said, 
``You know, we are predicting 25-foot wave heights out there. 
What should we do?'' I said, ``Put it on the Internet.'' It had 
a very interesting effect. Most of the surfers from that region 
who were very knowledgeable said, ``we are going to stay away 
from this one, we know what this place is like.'' But other 
people from Hawaii and Australia flew in to catch the waves. 
And as you know, the Coast Guard had to intervene and forbid 
them from surfing.
    In any case, it is not only important for surfers to 
predict wave heights, but it is those waves that are basically 
responsible for the transport of sediments down the California 
coast. Ultimately, we are going to be able to tie a lot of the 
work together. We are going to be able to take El Nino 
predictions--we are not ready yet--but we will be able to 
convert those into the water flow in all the California 
watersheds, the rivers. We will be able to estimate how much 
sediment the rivers bring toward the ocean and how much gets 
into the ocean. We will be able to put it all together.
    Mr. Farr. I think the more we do that, the more you will 
begin buying into this public awareness that we need as 
politicians to put their limited tax dollars in the right 
place.
    Dr. Kennel. The scientists can help to a significant 
extent. For example, just the whole effort to increase the 
resolution of computer modeling. This effort takes the global 
information, which we need, and actually brings it down to the 
local scale and actually improves that. And I believe the whole 
climate community is certainly focused on that issue. They 
understand the issue, but the results are not there yet.
    Mr. Farr. The next time you bring the group that you talked 
about in your testimony together, would you include FEMA in it? 
The coastal States are really concerned about erosion. And FEMA 
once had a policy where they would provide the FEMA funding for 
coastal erosion, and they have now backed away from all of 
that. And they know there is a big cost out there, but it is a 
big problem. The Florida delegation is very concerned about it, 
certainly California, other areas where there is large 
populations.
    We have not yet connected the science group and the 
economics that you have been able to pull out of that with the 
emergency funding folks, both OMB and FEMA. So you need to get 
them into your round table.
    Dr. Gagosian. Mr. Farr, if I could make just a comment 
about your thoughts on public outreach. I think we have done a 
very poor job in the scientific community in articulating the 
discoveries and the excitement, especially of ocean sciences. I 
think that is beginning to change now.
    I think one of the reasons why we have done a poor job is, 
one, that things were pretty good in the 1970's and 1980's, and 
we focused on how to spend the money and how best to spend 
money. Second, we do not really know how to communicate outside 
our own community very well, so we stayed within our own 
community. But I think that is changing.
    There are a couple of major programs that are being 
undertaken now. I think one way to do it is through traveling-
museum exhibits, where the substance is put in place by the 
scientists themselves, but not the way the exhibit is put 
together. That is put together by professionals who work in 
concert in a collegial way. And we actually are doing something 
like that now. Two 7,000-square-foot museum exhibits that will 
be done, hopefully, by the beginning of 1999, or at least by 
the middle of 1999, will travel to 15 major museums around the 
country, museums that have 2 to 4 million a people a year that 
go through them. So that is one way to do it.
    The other is with respect to the K-12 issue. Again, I think 
it is necessary to have professionals. Most of the time 
scientists tell people what they need to know. They rarely ask 
them what they want to know. And I think we have to change that 
pattern, especially with teachers. And that is beginning to 
happen as well.
    Again, one way do that is with a professional outside 
company, and we have actually spun off an outside company to 
start something like that, with people that know this business 
that are in the publication business, and they themselves are 
working with, in this particular case, Harcourt General, who 
has put significant money in, significant being over a million 
dollars, to start to put together curriculum for fourth- to 
sixth-graders and seventh- to ninth-graders, a curriculum that 
will consist of books and workbooks and handbooks, but also 
obviously a very strong Web interactive service so that the 
students can see the results as they are happening and actually 
talk with the people that are being involved.
    Video will play a big part in this as well. I see that 
coming on the horizon. When we took the ship Atlantis that we 
have to Washington, to Alexandria, last year, it was a real 
wake-up call for me because every kid wanted to see that, and 
they were very excited. Ocean sciences is a wonderful way to 
hook children to get them interested in the basic sciences, 
because the ocean is not a science, it is a place, and you need 
physics and chemistry and biology and engineering and geology. 
And that is the great hook that I think will bring the children 
into it.
    Dr. Grassle. I just want to agree with Bob's comment on the 
importance of getting marine science into the schools. We are 
involved in about 40 different school districts in New Jersey 
working with teachers to introduce a marine science curriculum 
as part of a science program at those schools. And we just 2 
weeks ago had a workshop for teachers involved with LEO, and 
they went out on the boats, they watched the computers, looked 
at the models and so on. So they got a real, firsthand feel 
that they could bring back to the classroom.
    But I also think that, in trying to get the public 
involved, we need to better explain that applied problems are 
also basic problems. I am always surprised when I go to various 
forums on problems such as beach erosion or problems associated 
with pollution of our ports that people do not go back to first 
principles and say, how does this environment work, how does 
sand move off the coast of New Jersey in our case, or what 
really is controlling the movement of contaminated sediment at 
the port?
    These are observing system issues, but the observing system 
is simply the basis for the understanding. And we feel that 
getting the public involved by putting the information from 
observing systems relevant to applied problems over the 
Internet is involving the public. Also, making data available 
through geographic search engines over the Internet is another 
useful approach.
    Mr. Farr. All the high schools in rural areas teach 
agriculture because there are jobs after you get out of high 
school. Every ocean community high school ought to be teaching 
about the oceans because there are going to be jobs in the 
oceans. And we have not linked that future employment to our 
educational training.
    Dr. Grassle. I know you are familiar with Project MARE 
developed at Berkeley. That is the curriculum we are using in 
these 40 school districts.
    Mr. Farr. Take a look at the Virtual Canyon, which is one 
of the exhibits at Expo in Lisbon that was formed from the high 
school and elementary schools in Monterey on the Monterey 
Canyon. It is a very exciting curriculum that they are 
developing right now.
    Mr. Saxton. Let me just expand the conversation if I may 
for just a moment, and then we are going to have to leave.
    Obviously, as was pointed out by the admiral earlier, the 
ocean covers a great deal more of the earth than we have the 
capacity to study, particularly as a result of our efforts here 
in this country. And it seems to me that a cooperative effort 
internationally would be quite beneficial in light of the fact 
that these activities are extremely expensive and we are 
stretching now to expend our efforts.
    What is going on internationally? Is there a degree of 
cooperation, and is there reason for us to be optimistic that 
ocean research internationally is something that we could look 
forward to hearing more about?
    Dr. Gagosian. Mr. Chairman, there are a couple of examples 
I would like to give. One is with respect to the ocean 
observing system in our countries.
    The European Union is moving ahead very rapidly. As a 
matter of fact, they are ahead of us. They are already planning 
experiments in the northeastern part of the Atlantic Ocean. On 
the other hand, there are a lot of discussions going on between 
our scientists and their scientists in planning joint 
expeditions and joint plans.
    There is a lot of cooperation also with the Japanese with 
respect to the potential for new ocean-drilling program 
opportunities into the next millennium, and they are actively 
involved in those discussions, not only with the United States, 
but with several other countries that are involved in the 
ocean-drilling program.
    And third, the Japanese, also with respect to deep sea 
observatories, are putting sums of money into this problem that 
are a bit overwhelming. The Japanese Marine Science and 
Technology Center had a $100 million plus-up just for deep sea 
observatories and autonomous vehicles. One hundred million 
dollars is half of the total NSF ocean sciences budget in one 
year. So that is just the plus-up.
    So clearly there are a lot of opportunities to work with 
them. But those are just three examples, and I am sure that 
there are other members of the panel that have others.
    Dr. Kennel. Perhaps my experience at NASA in helping 
develop an integrated observing strategy from space will be 
helpful. There is a Committee on Earth Observation Satellites, 
which consists of 18 spacefaring nations. The program leaders 
get together once a year, and they have worked to coordinate 
their activities. At NASA's pushing, we convinced them that the 
integration of the space observations could only go so far, at 
which point they had to come to grips with the fact that they 
also needed complementary ground-based and in-ocean 
observations. They then stopped and asked themselves the 
question, OK, that is scientifically correct; Now what do we 
do? Whom do we talk to?
    They have been having difficulty finding an analogous 
organization to speak to that could pull together the in situ 
observations. In this particular case, the oceans let us 
organize our efforts in such a way that we could work on the 
international scene with the already partially organized space 
effort.
    Mr. Saxton. Thank you.
    Dr. Grassle.
    Dr. Grassle. There is also interest in having an observing 
system for biological diversity, and there is an international 
program called DIVERSITAS, which is kind of an umbrella for 
most of the international organizations. And although 
DIVERSITAS has mostly terrestrial members of its executive 
committee, there is really a strong effort to get something 
going in the marine environment. Recently the Sloan Foundation 
became interested in this issue, raising the question as to why 
we cannot have a clear idea of how many fish are in the ocean, 
how many fish species.
    Now, I see this as a metaphor for understanding about life 
in general in the oceans. Rita Colwell mentioned that the new 
technologies in ocean observation give us the background to 
look in more detail at the processes in the ocean. That is 
particularly true for organisms such as fish, but also life on 
the sea floor and the enormous diversity in the deep sea.
    All of that depends on designing a global sampling system 
so that we do not inadvertently lose this important diversity 
for future generations.
    Mr. Saxton. Thank you very much.
    I want to thank each of you for the insights that you have 
brought to us today. It has been a very interesting and 
educational 2\1/2\ hours or so that we have been able to spend 
here with you today. We could spend a lot more time; however, 
we are going to have to bring the Subcommittee hearing to a 
close at this point. So thank you very much.
    The hearing record will be kept open for 30 days for 
potential responses to questions that Members may have, which 
they will submit in writing.
    [The information referred to may be found at end of 
hearing.]
    Mr. Saxton. If there is no further business, the Chairman 
again thanks the members of the Subcommittee, as well as our 
witnesses, and the Subcommittee stands adjourned.
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
Statement of D. James Baker, Under Secretary for Oceans and Atmosphere, 
                      U.S. Department of Commerce

INTRODUCTION

    Good morning. I am James Baker, Under Secretary of Commerce 
for Oceans and Atmosphere and Administrator of the National 
Oceanic and Atmospheric Administration. I thank you, Mr. 
Chairman, and members of the Subcommittee, for this opportunity 
to testify on ocean observations and related activities 
performed by the National Oceanic and Atmospheric 
Administration (NOAA).
    Over ten years ago, NOAA embarked on a mission to observe 
and record physical oceanographic and surface meteorologic 
features in the equatorial Pacific Ocean. This mission required 
the deployment of a new variety of observing instruments, 
including moored buoys, drifting buoys, atmospheric profilers, 
tide guages, and sensors released from volunteer ships. These 
instruments began to record data related to ocean currents, 
profiles of seawater temperature, salinity, and surface wind 
and air temperature. For years, these data were collected, 
transmitted via satellite to NOAA laboratories, and studied by 
Federal, university, and even international scientists. Over 
time, the data began to present shapes and patterns of physical 
oceanic change, and divulge secrets of one of nature's most 
powerful climatic events, the El Nino. The result of this 
sustained investment in ocean observation has brought 
unprecedented economic returns to this country and has 
introduced ocean and climate science to homes across all 
regions of the United States. Beyond question, the benefits 
from this type of long-term, continuous ocean observation are 
enormous.
    NOAA's many activities during the El Nino of 1997/1998 
demonstrated the value of long-term ocean observations, and of 
our efforts to discover the linkages among oceans, the 
atmosphere, marine ecology, and human society. The ENSO 
observing system provided the early detection of conditions 
that might lead to an El Nino, and soon after models developed 
by NOAA or by its academic partners produced quite accurate 
forecasts of the timing and relative intensity of the coming El 
Nino. NOAA worked closely with FEMA, state agencies and the 
media to ensure that accurate information on El Nino was 
readily available to decision-makers and the public. Once it 
was clear that El Nino of historic proportions was underway, 
NOAA undertook a series of special studies to document impacts 
along the U.S. Pacific Coast, where large impacts were expected 
and where a rich base of existing data were available as a 
background. These efforts made dramatic improvements in the 
accuracy of 3-5 day weather forecasts, provided vital 
information for shorter range weather forecasts and flood 
warnings, and we expect, will provide significant new insights 
on how anomalous ocean conditions affect plankton, fish, 
seabirds, and marine mammals in coastal waters.
    All seven of NOAA's Strategic Goals rely to some degree on 
observations of the world's oceans and seas, including their 
physics, chemistry, and biology. Our understanding of the 
surface and interior oceans, their variability and interaction 
with the atmosphere, and of subsurface processes and resources, 
is far from complete. Despite our recent success in predicting 
long-range climate events, including the current El Nino event 
we predicted many months in advance, we still have far to go. 
Recognizing this fact, President Clinton and Vice President 
Gore called for an agenda for action regarding the oceans at 
the recent National Ocean Conference in Monterey, California. 
There, they highlighted the critical significance of the oceans 
to our Nation's economic and social well-being, and issued a 
directive for increased observations of the world's ocean 
processes and features.
    At this conference, the Administration launched nine major 
initiatives for the exploration, restoration and protection of 
America's vital ocean resources. These measures will provide 
new scientific insight into the oceans, promote sustainable use 
of fisheries and other marine resources, open new opportunities 
for jobs and economic growth, preserve national security and 
freedom of the seas, and help preserve our oceans for all time. 
The President and Vice President are proposing an additional 
$224 million through 2002 to support these efforts beginning in 
FY 2000. The initiatives particularly relevant to ocean 
observations are Exploring the Last U.S. Frontier and 
Monitoring Climate and Global Warming. NOAA has a critical role 
in the development and implementation of these initiatives.
    To unravel deep-sea mysteries, discover new opportunities 
in the ocean, and better understand how to protect marine 
resources, the Administration is launching a program to map and 
explore U.S. ocean waters with advanced underwater technology. 
This initiative, called ``Exploring the Last U.S. Frontier,'' 
proposes $12 million through 2002 to be used to expand two 
shallow-water observatories (Aquarius and LEO), build two new 
deep-sea observatories (Gulf of Mexico and Juan de Fuca Ridge), 
and develop two high-tech submersibles to explore exotic sea 
life. A new initiative has been launched in partnership with 
the National Geographic Society and Goldman Foundation to 
explore our National Marine Sanctuaries.
    To understand better the role of the oceans in shaping our 
weather and climate, and to help address the threat of global 
warming, the Administration has announced ``Monitoring Climate 
and Global Warming,'' an initiative for an expanded ocean 
monitoring system. We are proposing an additional $12 million 
through 2002 to place hundreds of monitoring buoys in the North 
Atlantic and North Pacific to measure critical ocean data, 
including temperature and salinity at different depths.
    To begin today, I would like to explain the scope and 
nature of NOAA's existing ocean observation systems and present 
areas where additional work and study are required. 
Understanding our ocean observation programs will require some 
discussion of the tools and processes used for observation. 
These tools--submersibles, automated profiling buoys, state-of-
the-art satellites--are in a process of almost constant 
evolution as our abilities to understand the oceans deepen and 
our needs for scientific data expand.
    Clearly, ocean observation includes the assessment and 
monitoring of living ocean resources. A major challenge 
confronting our fisheries managers involves observation of fish 
stocks using antiquated and unsuitable vessels. NOAA's fleet of 
eight fisheries research vessels has reached or exceeded their 
expected service lives. Admiral Craig Dorman recently reviewed 
NOAA's plan to replace the capacity of these vessels. I will 
conclude my comments by detailing his report.

EXISTING OCEAN OBSERVATION SYSTEMS

    Perhaps the best known of NOAA's ocean observing systems is 
the El Nino Southern Oscillation (ENSO) Observing System. This 
system is comprised of a moored buoy array, drifting buoys, a 
fleet of volunteer observing ships (VOS), remote sensing 
satellites and a sea level gauge network. Each component of 
this network contributes in a different way to our knowledge of 
ocean processes and to our predictive capability. While the 
ENSO Observing System is focused on the tropical Pacific Ocean, 
scientists have recognized that climate variability results 
from interactions among different oceanic regions, so that 
improved predictability requires observations of all oceans, 
which can be combined to create climate information critical to 
a host of U.S. and foreign users. Thus, in 1998, the 
International Year of the Ocean, NOAA committed to 
participating in the building of a Global Ocean Observing 
System (GOOS) that is essential to improving the basis for our 
climate forecasting.

The Global Ocean Observing System

    Working toward the Global Ocean Observing System, NOAA has 
adopted a simple strategy: through our climate research 
program, we support cooperative international observation 
projects which target modes of climate variability (ENSO, the 
Pacific Decadal Oscillation (PDO) the North Atlantic 
Oscillation (LAO), etc.) while at the same time form ``building 
blocks'' of GOOS. The building blocks, or networks, on which we 
are concentrating most of our attention for sustained ocean 
observations are the following: (1) deep ocean moorings; (2) 
surface drifting buoys; (3) tide gauges; (4) Volunteer 
Observing Ships; and (5) autonomous profiling floats. These 
networks complement each other, and each contributes its unique 
capabilities to the composite system. In combination with 
remote sensing from satellites, these five networks provide the 
backbone of the sustained global ocean observations needed to 
improve climate forecast skill.
    Using the same automated sensing technologies developed for 
the ENSO observing system, and in cooperation with 
international partners, a pilot array has been established in 
the Atlantic in search of modes of Atlantic climate variability 
that interact with the Pacific variability. Relying on a 
foundation of cooperation with international partners, NOAA 
plans additional network expansions in the year 2000, building 
on the ENSO System and the Atlantic pilot array that will 
target the North Pacific, the extra-tropical Atlantic, and the 
eastern Indian Ocean to observe the modes of climate 
variability beyond ENSO.
    The first four of the five networks (building blocks) were 
developed over the last 15 years as part of the research on El 
Nino. The Tropical Atmosphere Ocean (TAO) array of 70 moorings 
spanning the equatorial Pacific, the VOS fleet of 68 research 
and volunteer commercial ships covering all oceans, the 63 
Indo-Pacific and Atlantic island tide gauge stations, and the 
global array of 390 drifting buoys, together form the ENSO 
Observing System. This composite observing system, essential 
for NOAA's climate forecasting mission, is now maintained on an 
operational basis. The fifth network, autonomous profiling 
floats, is a new technology that is not yet part of the 
``operational'' ENSO Observing System, but is proving its value 
through two research arrays (described below) and is now 
considered a proven member of the composite, five-network ocean 
observing system. The Global Ocean Observing System will 
consist of some combination of these different measurement 
systems. This innovative technology, specified by the 
President's proposal in Monterey, will complement other in situ 
and remote satellite observations to refine climate prediction 
models.
    The need for ocean observations to track the Pacific El 
Nino is well understood. We also know that the Atlantic Ocean 
generates a significant, but less understood, influence on the 
climate of North America as well as South America, Europe, and 
Africa. The influence of the tropical Atlantic competes with, 
and is modulated by, the Pacific El Nino. These processes can, 
for example, modulate the frequency and intensity of hurricanes 
impacting the U.S. eastern seaboard, as dramatically 
demonstrated by the dearth of hurricanes in the 1997 season--a 
favorable impact of El Nino. In 1998, NOAA supported 
implementation of the new Pilot Research Array in the Tropical 
Atlantic (PIRATA) in cooperation with France and Brazil. This 
array of 12 moorings is, in effect, an eastward extension of 
the TAO array; five moorings have been deployed to date, with 
the additional seven scheduled over the next year.
    Other existing NOAA programs for ocean observation include 
the following:

        <bullet> A global network of tide gauge stations that has 
        become essential for removal of the inevitable instrument drift 
        in altimeter measurements for accurate climate forecasting.
        <bullet> A contribution of 19 autonomous profiling floats to 
        National Science Foundation's Atlantic Circulation and Climate 
        Experiment.
        <bullet> An expansion of the ENSO observing system with 100 
        additional surface drifters, 75 profiling floats, and four high 
        density VOS lines concentrated in the eastern Pacific to study 
        the North Pacific Decadal Oscillation.
        <bullet> Satellite systems that provide information globally on 
        winds, the thermal structure of the atmosphere, and sea surface 
        temperatures.
        <bullet> The National Water Level Observation Network of 189 
        tide gauges to provide essential data for navigation, tsunami 
        and storm surge warnings, legal determinations of property 
        lines, sea level rise, and other public and commercial 
        applications.
        <bullet> A network of coastal ocean weather buoys to provide 
        frequent, high-quality marine observations to diagnose 
        conditions to prepare and validate weather forecasts.

Seafloor Observation Systems

    While at the National Ocean Conference in Monterey, Vice President 
Gore noted that submersible and hydroacoustic technologies have brought 
scientists to a new frontier in fields of undersea research. Recent 
scientific advances have allowed us access to thousands of square miles 
of virtually unknown seafloor resources. NOAA has a rich history of 
support for seafloor observatories and is providing significant new 
support for various efforts. These include: the ``Aquarius'' habitat in 
the Florida Keys, the Long-term Environmental Observatory (LEO) effort 
off the coast of New Jersey, and the VENTS program in sites along the 
Pacific Coast.

AQUARIUS

    Owned by NOAA and managed by the University of North Carolina at 
Wilmington (UNCW), Aquarius is the world's only underwater laboratory 
from which diving scientists can live and work beneath the sea during 
research missions up to 10 days in length. For its current assignment, 
Aquarius operates at a depth of 60 feet at the base of a coral reefwall 
off Key Largo, Florida. The 81-ton, 43x20x16.5-foot underwater 
laboratory has many of the comforts of home while also providing 
scientists with sophisticated laboratory capability.
    The special diving capability of Aquarius, called saturation 
diving, allows scientists to work outside the habitat on the reef up to 
nine hours a day without fear of getting the bends, compared to one 
hour if they had to work from the surface. Increased research time on-
bottom is the key element that enhances scientific productivity beneath 
the sea. The support personnel of the National Undersea Research Center 
at UNCW enhance program productivity through diver training, and 
scientific and operational expertise. Safety is a hallmark of the 
program.
    Aquarius is the centerpiece of a comprehensive environmental 
research program in the Florida Keys aimed at better understanding and 
preserving the health of coral reefs and near shore ecosystems.

LEO

    September 1996 marked the completion of a seafloor observatory 
facility providing a real-time Internet link to the undersea 
environment off the coast of New Jersey. This innovative link provides 
access to the ocean floor for scientists, engineers, students and 
educators.
    The Long-term Ecosystem Observatory facility, or LEO, was 
established in 15 meters of water (and named appropriately LEO-15) on 
the dynamic inner continental shelf off Tuckerton, New Jersey (just 
north of Atlantic City). The observatory facility, recently renamed the 
LEO-15 National Littoral Laboratory, consists of two instrumented 
platforms (termed ``nodes''), anchored to the seafloor at distances of 
4 and 5.5 km from the entrance to Great Bay. The nodes are connected to 
a shore-based facility by 9.6 km of electro-optical cable that is 
buried 2 m meters below the seafloor. LEO-15 provides an excellent site 
to test and deploy sampling and sensing equipment. Guest ports are 
available at each node of the observatory facility to supply power, 
operate instruments, and transmit data.
    The LEO-15 observatory was built as a partnership between the 
Institute of Marine and Coastal Sciences (IMCS) at Rutgers University, 
and the Ocean Systems Laboratory of the Woods Hole Oceanographic 
Institution. Support for the development and installation has been 
provided by the National Science Foundation. Additional support has 
come from NOAA's National Undersea Research Program (NURP) through the 
Mid-Atlantic Bight National Undersea Research Center. NURP continues to 
provide support, both for maintenance and operation of the observatory, 
and for research at the site. In addition, the Office of Naval Research 
and the National Oceanographic Partnership Program (NOPP) are 
supporting modeling efforts, research, and further development of the 
observatory facility and its sensing capabilities.
    One area of rapid advancement has been in the development of an 
autonomous vehicle, REMUS (Remote Environmental Sampling Units), that 
will become integrated into the observatory facility. REMUS vehicles 
will be used widely in the vicinity of LEO-15 this summer as part of a 
multi-platform adaptive sampling effort focusing on evaluating a 
relocatable, data assimilative, coastal-ocean forecasting model.

VENTS

    Through its VENTS Program, NOAA is conducting ground-breaking 
research and observations of processes and ecosystems in the interior 
ocean and sea floor. One recent important finding is the discovery of 
episodic volcanic/hydrothermal bursts, called megaplumes, which inject 
massive heat and chemical inputs into the ocean as a consequence of 
deep-sea volcanic eruptions. Megaplumes persist in the ocean for 
months, maybe years, and have important ocean environmental 
consequences because of their heat and chemical content. Now, it is 
suspected they play an important role in macro- and micro-biological 
ecosystems.
    The VENTS Program obtained access to the U.S. Navy's Sound 
Surveillance System hydrophore network and has designed and implemented 
the world's only real-time, Pacific-wide acoustic monitoring 
capability. This capability enables VENTS to detect and locate deep 
volcanic eruptions and thus makes it possible for these events to be 
studied while they are active. While these are the most common volcanic 
eruptions on Earth, it was not until 1993 when VENTS detected an 
eruption taking place off the coast of Oregon, along the Juan de Fuca 
Ridge, that a deep-sea eruption was studied while it was active. These 
eruptions have profound impacts on the ocean's thermal, chemical, and 
biological environments.
    VENTS scientists are pioneering the study of the sub seafloor 
microbial biosphere through seafloor and water column sampling 
projects. These projects, including sampling of the plumes arising from 
active deep volcanic eruptions, have shown that eruptions are literally 
windows into the biosphere. Within the last five years, VENTS 
scientists have discovered that the most unusual of the bacteria which 
live in extremely hot sub seafloor environments are very common in 
eruption megaplumes. The monitoring and sampling technologies designed 
by VENTS have made it possible to recover microbial species with 
profound potential in industrial, environmental, biotechnical and 
pharmaceutical applications. For example, an enzyme found only in deep 
hydrothermal vents is revolutionizing our ability to replicate DNA 
using the polymerase chain reaction technique. This technique can be 
used to identify, with a very high probability, disease-causing viruses 
and/or bacteria, or the DNA of a particular individual.

AREAS THAT NEED ADDITIONAL STUDY

    The historic success in forecasting the 1997-98 ENSO event placed 
an immediate demand on NOAA to improve tropical forecasting and expand 
our understanding of extra-tropical variability. Conditions in the 
Pacific in the 1980s were significantly different from those in the 
1990s due to decadal-scale shifts in the ENSO cycle. Understanding of 
other variability modes in the Pacific such as the Pacific Decadal 
Oscillation and the American Monsoon is a priority for NOAA's climate 
research program. We must build a sustained observing system in the 
North Pacific to monitor this region of significant impact on the U.S.
    A focused extension of observations into the eastern Indian Ocean 
is also needed. Many scientists think that westerly wind bursts from 
the Indian Ocean may somehow trigger the onset of El Nino. There is 
considerable evidence that the sea surface temperature variability 
there influences the Asian/Australian Monsoons, thus affecting their 
predictability and hence the predictability of El Nino. In 1998, the 
Japan Marine Science and Technology Center (JAMSTEC), one of our 
principal partners in Indo-Pacific observations, began deployment of 
their TRITON moorings in the western Pacific as the first step in 
extending the ENSO Observing System westward. As a complement to 
JAMSTEC's TRITON moorings, NOAA must work with Japan and other Austral/
Asian nations to deploy other network platforms to investigate sea 
surface patterns in this critical monsoon area. The expansion of these 
types of monitoring platforms is an important component of the 
initiative ``Monitoring Climate and Global Warming'' issued in 
Monterey.
    As mentioned above, climate models suggest that the atmosphere and 
the Atlantic Ocean may be coupled to create a climate influence of 
great importance to the United States, particularly the easterner U.S. 
The so-called North Atlantic Oscillation (NAO) and the Tropical 
Atlantic Variability (TAV) unquestionably affect our climate, but we do 
not understand how. The first step in understanding these Atlantic 
regimes is to establish an observing system, similar to the one we have 
in the Pacific. Over the next two years, data from the Atlantic pilot 
array will be analyzed to assess long-term observational requirements 
for the Atlantic.
    Assessment and definition of long-term ocean observing strategies 
is a major task for NOAA and its partners, so that only the best, most 
cost-effective systems are deployed. Research projects such as CLIVAR 
and operationally oriented efforts such as GODAE include efforts to 
develop effective observing strategies. NOAA will be a major 
participant in these efforts.
    Results from the existing undersea research efforts have 
demonstrated that there are new discoveries with potentially large 
economic payoff waiting for us beneath the oceans. NOAA intends to 
increase its efforts in the existing shallow water observatories 
(Aquarius and LEO) and to participate in the development of two new 
deep water observatories. Efforts on the Juan de Fuca Ridge and in the 
Gulf of Mexico will allow intensive study of newly discovered species 
and estimation of their potential economic value, provide more 
quantitative data on the impacts of seeps and vents on ocean chemistry 
and heat balance, and learn of other ocean processes or resources. 
VENTS and NURP will work with NSF and others to implement an 
observatory on the Juan de Fuca Ridge. The two NOAA programs will 
provide the sustained observation effort and dedicated logistics 
support that will serve as a framework for process research by 
scientists supported by NSF.
    Over the years, NSF and NOAA have had a complementary partnership 
under which the NSF RIDGE Program has emphasized sub seafloor science, 
while the VENTS Program has emphasized the area from the seafloor to 
the ocean surface. Both programs have an interest in the exciting 
biological discoveries in the venting areas, and are working in close 
coordination. The NOAA role in the observatory on the Juan de Fuca 
Ridge will require about 60 days-at-sea of major ship support each year 
from either NOAA or UNOLS vessels, as well as access to manned and 
unmanned submersibles from UNOLS, Canada, and elsewhere.
    During the height of the 1997/1998 El Nino, NOAA undertook a 
special study to determine the impacts of El Nino on the west coast of 
the United States, with emphasis on coastal weather and marine ecology. 
This study clearly demonstrated the strong link between climate 
variability and weather events. Over the next several months, NOAA will 
evaluate how increased or redirected ocean and atmospheric observations 
might improve the predictability of climate variations at regional 
scales and related weather events.
    Finally, our 12 National Marine Sanctuaries remain largely 
unexplored. In Monterey, the President announced efforts to support the 
recently announced five-year research expedition within the Sanctuaries 
that will be led by Dr. Sylvia Earle, the explorer in residence to the 
National Geographic Society. Dr. Earle's ``Sustainable Seas 
Expeditions'' will assist in developing a more comprehensive inventory 
of the biodiversity within our National Marine Sanctuaries. These 
efforts will improve science-based recommendations for stronger 
protections, such as the ``no-take'' zones in the Florida Keys National 
Marine Sanctuary.

PARTNERSHIPS FOR OCEAN OBSERVATION

    NOAA employs many different types of tools and technologies to 
undertake ocean observations. A mix of observation platforms (ships, 
submersibles, moored and drifting buoys, tide gauges, etc.) perform in 
situ measurement, sampling, and/or sensing, while several satellite- 
and land-based remote sensing systems provide broad-scale surface 
measurements. The capital and operational costs of collecting ocean 
observations are very high and NOAA is not able to fully underwrite 
these costs alone. Thus we are working in cooperation with other 
nations and collaboratively with other agencies on oceanographic 
research and in situ and satellite observations. Further, we are 
working with UNOLS to optimize the use of research ship resources. 
Likewise, it was through a partnership among academia, private industry 
and a non-profit foundation, that Aquarius, the world's only underwater 
laboratory, was refurbished and put back into operation as Aquarius 
2000.
    These extensive partnerships are essential tools for ocean 
observation, and represent significant enabling capabilities. The two 
principal types of partnerships we undertake are; (1) those with 
academic institutions and, (2) those with other Federal agencies. NOAA 
is very proud of its institutional partnerships with academia, 
represented by the numerous state Sea Grant programs, the Undersea 
Research Centers, and the Joint and Cooperative Institutes. Together, 
these programs conduct at least $80 million of research annually in 
support of NOAA's missions. Additional tens of millions of dollars flow 
to academic scientists through other funding pathways. NOAA's 
Environmental Research Laboratories are Associate Members of the 
Consortium for Oceanographic Research and Education (CORE), providing 
an additional communications channel to academic institutions.
    Partnerships with private industry, particularly those that involve 
fishers in data collection, are also important. For example, NOAA's 
Northwest Fisheries Science Center is developing an Electronic Logbook 
with Innovative Technology Funds. This prototype project, which is 
carried out in response to an industry request, will give NOAA the 
opportunity to mount private-vendor conductivity-temperature-depth 
meters on as many as 200 West Coast trawl vessels, to supplement data 
gathered by research surveys on NOAA vessels.
    NOAA has joined with other Federal agencies to undertake projects 
like the South Florida Restoration Program, and has taken the lead on 
studies in Florida Bay, where NOAA's oceanographic and ecological 
research capabilities are critical to the project's success. NOAA is 
very active in the National Oceanographic Partnership Program (NOPP). 
We support the purpose of NOPP, as stated by the Congress, and are very 
appreciative of the leadership role played by the Secretary of the Navy 
and the Office of Naval Research. The NOPP Program Office at CORE is 
providing excellent support to the NOPP Interagency Working Group.
    During the first two years of NOPP, NOAA scientists partnered with 
various agency, academic, and private sector colleagues to establish 
systems to make ocean observations, including a pilot North Pacific 
mooring, development of chemical and big-optical sensors, dual use of 
the Navy's Over the Horizon Radar, and a coastal forecasting system in 
the Chesapeake Bay. NOAA and partner agencies utilized the NOPP process 
this fiscal year to undertake a research program on the Ecology of 
Harmful Algal Blooms, and NOAA's request for FY 1999 provides funds for 
NOAA to utilize the capabilities provided by NOPP to investigate the 
seasonal hypoxia in the northern Gulf of Mexico. NOAA will seek 
additional opportunities for involvement in NOPP as circumstances 
permit.
    NOAA supports the concept of global-scale observing systems, such 
as the Global Ocean Observing System (GOOS) and the Global Climate 
Observing System (GCOS). Internally, NOAA has organized an approach to 
GOOS and GCOS that combines the capabilities of our research 
laboratories and our joint institute partners to undertake systematic, 
sustained in situ ocean observations. The overall scientific and 
engineering expertise available through this joint approach will allow 
NOAA to obtain the highest quality measurements at the lowest possible 
cost. For full implementation, we recognize that global-scale observing 
systems require international participation and financial support. At 
present, scientist-to-scientist, agency-to agency, or United Nations-
based arrangements are being used for international partnerships. 
Because these global observing systems will be needed over very long 
periods of time, these arrangements must be made by fiscally and 
technically capable governments, with binding scientific 
responsibilities, and a commitment to global application and universal 
benefit. Consideration of this might become a task for a new Ocean 
Commission.

NEW OBSERVATIONAL TOOLS NEEDED

    As discussed in detail below, additional observations of the oceans 
are desperately needed. Yet I must add that another critical limiting 
factor to improved climate and weather predictions is our limitation on 
computing power. The climate prediction centers in the United States 
must have access to faster computers and larger data storage 
capabilities if we are to create higher resolution models and 
incorporate new types of data into these models. It does little good to 
increase observations without the simultaneous ability to assimilate 
and apply these data for improved forecasts. NOAA currently is 
evaluating the status of its computing infrastructure.
    Understanding climate is a global issue. As the climate prediction 
centers begin installing the next generation forecast models, better 
data sets will be required covering the global ocean. In addition to 
targeting the key regions of critical importance outlined above, global 
measurement of sea surface temperature, upper ocean mass, and surface 
meteorology will be essential. The international research community is 
currently at work designing observational strategies for extended 
climate studies. NOAA is evaluating the ENSO Observing System to make 
it as efficient as possible. By the year 2000, we will be ready to move 
forward with the five networks to implement the global observations 
needed.
    Scientists at Woods Hole Oceanographic Institution (WHOI) are 
developing a plan to deploy moorings at several of the old at-sea 
weather station sites, where time series data sets from the past can be 
recovered and continued forward to document climate variability and 
change. These ``ocean observatory'' moorings are being designed as a 
complement to the drifting arrays, VOS, and satellite networks, and 
are, in effect, an extension of the TAO/TRITON/PIRATA network into the 
higher latitudes.
    Along with the Atlantic pilot arrays, NOAA initiated a ``Better 
VOS'' project in 1998 to improve the measurement capabilities of the 
Volunteer Observing Ship (VOS) fleet world-wide. By the year 2000 the 
automated observing instruments, being developed at WHOI and integrated 
through the Small Business Innovation Research Program, will be ready 
for deployment on the VOS fleet.
    One of the advantages of the five-network system is its flexibility 
in providing various platforms for measuring a host of climate 
variables--autonomously. For global monitoring of carbon dioxide, 
measurements in the ocean as well as in the atmosphere must be 
maintained. The oceans are major ``sinks'' absorbing carbon dioxide, 
the principal greenhouse gas contributing to climate change. Presently, 
ocean carbon measurement campaigns must be supported by research 
vessels. NOAA scientists, in collaboration with scientists from five 
other institutions, are working on a NOPP supported project to develop 
autonomous carbon sampling instruments that can be placed on moorings 
(and potentially other platforms) to operate independently over the 
long-term at much lower cost. This project is also developing other 
autonomous sensors and by the year 2000 will be ready to transition 
next generation technologies to the oceanographic community for long-
term monitoring of biogeochemical and big-optical as well as physical 
processes.
    The two existing arrays of autonomous profiling floats in the 
Atlantic and east Pacific represent the early phase of a much larger 
plan under development by a team of researchers from Scripps 
Institution of Oceanography and Woods Hole Oceanographic Institution to 
deploy a global network of floats. Floating submerged at various depths 
to provide circulation information, these 4-foot long tubes 
automatically ascend to the ocean surface once every two weeks to 
report ocean temperature and salinity profiles needed to calibrate 
satellite observations and interpret subsurface ocean characteristics 
(satellites cannot see below the ocean surface). This project is called 
Argo and is an essential complement to the satellite altimetry mission, 
Jason, and successor missions. The project will expand the tropical 
arrays and help fill the large gaps--data voids of thousands of 
kilometers--between the moored arrays and the VOS lines.
    Another international project that you will undoubtedly hear much 
more about over the next two years is GODAE--the Global Ocean Data 
Assimilation Experiment. This project will create a means to provide 
up-to-the-minute analyses of ocean conditions, the way we now have 
analyses of atmospheric (weather) conditions for use by the shipping 
industry, search and rescue, exploration and engineering, fisheries, 
disaster preparedness and response, and all other ocean users, as well 
as climate forecasters. GODAE is a huge assimilation and modeling 
effort that will require the resources of many nations to accomplish. 
It is being organized under the auspices of the international Ocean 
Observations Panel for Climate. NOAA is committed to supporting this 
effort through our ocean observations program--we will help provide the 
global, real-time, in situ ocean measurements necessary for 
assimilation into the global ocean models.
    In order to implement a Global Ocean Observing System, maintenance 
of an infrastructure for global data set management and international 
implementation is as essential as maintenance of ocean platforms. It is 
this infrastructure that will glue the networks together to make a 
truly global ``system.'' A critical element of NOAA's observational 
strategy is to work with our global partners to create the 
infrastructure necessary to ensure the quality and continuity of long-
term data sets, facilitate exchange between network operators, and 
produce and disseminate integrated ocean information that is of maximum 
benefit to those who need it.
    The ocean is generally undersampled. Even in the equatorial 
Pacific, we know that we must add subsurface salinity measurement 
capability to the TAO array if we are going to improve predictability 
of ENSO events. We may need additional measurements of surface winds in 
the western equatorial Pacific if these winds are determined to be a 
critical factor in the initiation of El Nino. We recognize that the 
North Pacific, North Atlantic, equatorial Atlantic and Indian Ocean 
likely play key roles in short-term climate variability and without 
additional measurements in these regions, extending climate predictions 
to include regional- or local-scale predictions may be impossible.
    Satellites provide the only true global coverage, but at present 
are limited to sensing of surface features and properties only. 
Application of remote sensing technologies from satellites and aircraft 
are under development to observe the wind field over the ocean 
(scatterometers, lidars), and it is likely that such measurements will 
be key for improving ENSO predictability. These remote sensing 
technologies, coupled with networks of in situ measurements from buoys 
and ships, offer the best opportunity to correct ocean under sampling 
on a global scale.
    More efficient management of our Nation's living marine resources 
would result from better information about the current status of the 
various biological components of the marine environment and of the 
relationships between them. In part, this information must be based on 
independent surveys using multiple techniques. Some of these 
techniques, like direct trawls for detailed sampling of a small portion 
of a habitat, are well developed. Others, like side-scan sonar and 
airborne lidar, are capable of covering much larger areas, but 
questions of data processing and instrument calibration remain to be 
answered. NOAA is working with various other countries and states to 
answer these questions and develop more accurate surveys.

OBSERVATION OF LIVING OCEAN RESOURCES

    A major challenge in providing the required fisheries stock 
assessment information needed to manage fisheries is that NOAA's fleet 
of eight fisheries research vessels (FRVs) have reached or exceeded 
their expected service lives. On average, they are over 34 years old. 
For several years, options have been studied to replace the 
capabilities of these vessels. The options have been analyzed by an 
interdisciplinary team of scientists, acquisition specialists, design 
engineers and consultants from NOAA, other Federal agencies and the 
private sector. Admiral Craig Dorman recently reviewed NOAA's plan and 
generally concluded that the ship design will provide a world class 
fisheries research vessel, yet is not over specified. The report 
supports construction of four dedicated FRVs. These ships, supplemented 
with chartered vessels, represent a good start in maintaining the 
capabilities to meet our growing stewardship responsibilities.
    NOAA Fisheries has reviewed Admiral Dorman's draft report dated 27 
April, 1998. The following responds to major elements of the report.

Specification Validation

    It is gratifying that both the process which was used to develop 
ship requirements and the requirements themselves withstood the test of 
external review. They represent the culmination of a multi-disciplinary 
collaboration of several government entities and private industry, 
which spanned nearly a decade. RADM Dorman stated:

        ``. . . the FRVs as defined by the requirements statement will 
        be outstanding vessels that should serve NMFS and the nation 
        extremely well as the core of a dedicated fisheries fleet for 
        their full projected lifetime . . . they are not over 
        specified.'' (pp. 7-8).
    He also strongly supports purpose-built ships which agrees with the 
NOAA approach for meeting its at-sea data requirements; constructing a 
core fleet of purpose-built, fisheries research vessels, and 
supplementing it with charters from the private sector and UNOLS.

ICES Noise Standard

    Discussed at length was the requirement to meet the ICES noise 
standard, and ultimately, the report supported both designing the ship 
to meet the standard and including a centerboard to which acoustic 
instrumentation could be affixed. These measures will improve the 
efficiency of hydroacoustics, allow the fleet to accommodate 
technological advancements, and will minimize survey bias due to 
behavioral responses to ship noise.

Technology

    The report also advocates that NOAA and other sponsors develop a 
national plan for research dedicated to advancing the state of 
technology used in fisheries oceanography, and stock assessment, 
particularly with respect to marine mammals and endangered species. 
NOAA agrees that a directed, collaborative effort of Federal, and state 
government, academic and private industry research bodies to focus on 
tools to better understand and manage the Nation's living marine 
resources would push the pace of technological advancements. NOAA 
concurs that a commitment by NOAA, the Department of Commerce, and OMB 
to request the resources from Congress to implement a national plan 
aimed at this goal is essential to its success. RADM Dorman, however, 
agrees that these technologies will not replace the need for dedicated 
fisheries research vessels, but will be an important tool to improve 
the quality of resource information and will help in areas where no 
other technique is more cost effective. These state-of-the-art research 
vessels give fisheries managers the highly specialized tools they need 
to make better decisions based on sound science.
    In Monterey, the President proposed an additional $194 million over 
three years to begin construction of these new research vessels and 
speed implementation of measures to reduce overfishing, protect 
essential fish habitat, and to restore America's fisheries.
    Mr. Chairman and Members of the Subcommittee, that concludes my 
testimony. I would be happy to answer any questions you may have.
                                 ______
                                 

  Statement of Dr. Rita Colwell, Director Designate, National Science 
                               Foundation

    Chairman Saxton and members of the Committee, I appreciate 
the opportunity to testify today on the important topic of 
ocean monitoring and assessment. This is my first hearing as 
Director of the National Science Foundation, and I look forward 
to many more opportunities to keep Congress apprised of the 
important research and educational activities that we support.
    I am pleased to report to you that the National Science 
Foundation plays a substantial and critical role in the design 
and development of the Nation's oceanographic monitoring and 
assessment capabilities. We can identify a number of areas 
within which significant progress has been made in recent 
years, and in the few minutes available I will summarize for 
you some important successes.
    The contribution that NSF-supported researchers make to 
ocean monitoring is fundamental. Effective and efficient 
oceanographic observation systems cannot be designed without 
knowledge of the active processes that they are intended to 
monitor. One exciting theme emerging from the past decade of 
ocean sciences research is the degree of complexity and 
variability of the oceans physical, chemical and biological 
processes, frequently on spatial scales of as little as half a 
mile. It is clearly impossible to monitor anything other than 
the surface of the global ocean (or even coastal waters) with 
such minute spatial resolution. Therefore, it is essential to 
understand the underlying processes sufficiently well so a 
small number of key observations can be identified that 
reliably tell us how the system changes overtime. Only with an 
understanding of the process can we make good decisions about 
what measurements will best characterize changes in the ocean, 
and, most importantly, how many measurements are required, and 
where they should be located.
    The NSF-funded Tropical Ocean Global Atmosphere (TOGA) 
program focused on the physical processes occurring in the 
tropical ocean and atmosphere. The result was a recognition of 
the forces underlying the El Nino phenomenon, which in turn led 
to the design and deployment of the existing El Nino-Southern 
Oscillation (ENSO) observing system. The classic example is the 
array of buoys maintained by NOAA in the equatorial Pacific. 
This array is proving to be a powerful predictor of El Nino 
events. A small number of buoys, only 70 in total, in 
conjunction with satellite remote sensing methods is sufficient 
to monitor a vast area of the tropical Pacific Ocean. This 
capability was made possible by the basic research carried out 
by NSF-supported investigators cooperating with NOAA, NASA and 
international scientists in the early 1980's on the Tropical 
Ocean Global Atmosphere (TOGA) program.
    In addition to complexity and variability characteristics 
of the oceans, important is designing a monitoring strategy to 
recognize the intimate links that exist between the chemical, 
physical and biological changes that we are witnessing. Today 
we know that it is impossible to understand the dramatic 
fluctuations in fish populations on the Georges Bank, for 
example, without understanding subsurface current systems that 
control dispersal of fish larvae. We cannot understand the 
development and distribution of plankton in the ocean (a 
primary food source) without understanding the chemistry of the 
ocean. The ``blooms'' of plankton in the ocean depend on 
availability of nutrients, including micronutrients such as 
inorganic elements and vitamins.
    Clearly, monitoring the ocean must be a multidisciplinary 
activity because the of the interconnected physical, chemical 
and biological processes that control the health of the oceans. 
Support of those activities require inter-agency cooperation 
and partnerships.
    One helpful way of categorizing the measurements that need 
to be made to monitor the oceans is to consider the following 
three overlapping classes:

        <bullet> First, we need sustained time-series monitoring that 
        provides data useful perhaps decades from now to detect subtle 
        changes in the chemical, biological and physical 
        characteristics of our oceans. These measurements provide the 
        early-warning of changes in our earth system.
        <bullet> Second, we need selected long-term observations that 
        allow us to predict changes in our oceans and weather systems 
        and thereby alleviate negative impacts--unquestionably this 
        year's El Nino activity is a clear example of this. The real 
        time experiments and the predictive capacity they provided gave 
        us some extraordinary new insights on climate and health.
        <bullet> Lastly we need measurements, observations and 
        experiments to help us understand the dynamic processes--
        physical, chemical and biological--that are responsible for the 
        changes, that are the root cause of all the changes that 
        occur--the understanding of which is essential to any 
        capability for skilled prediction. It is the interactions of 
        these processes that provide the elegant complexity that 
        sustains both human and environmental health.
    There is an intriguing shift that is slowly occurring in the 
emphasis of oceanographic research. Two decades ago the most exciting 
and unexpected discoveries occurred because researchers traveled to new 
locations in the oceans--this is the traditional mode of ``exploring.'' 
However, today many of the biggest surprises are coming from 
measurements made at the same location but over long periods of time. 
It is the dynamics of the earth that is opening up many of the most 
intriguing secrets. Today oceanographers are becoming more explorers in 
time, as well as explorers in space, an important phenomenon of the 
science in this area of study.
    It is in the process-oriented category of monitoring and 
observation that NSF is vitally active, and I am pleased to report that 
we are involved in a remarkably diverse and exciting set of projects. I 
have sufficient time here to describe only a few representative 
examples.

        <bullet> The ocean moderates how rapidly the carbon dioxide 
        content of the atmosphere is increasing. We are just finishing 
        the fourth regional experiment of the Joint Global Ocean Flux 
        Study (JGOFS) to trace the ganic and inorganic pathways of 
        carbon through the ocean. The goal is to learn how carbon 
        dioxide cycles through the Earth system. The Southern Ocean 
        experiment followed those in the North Atlantic, the Equatorial 
        Pacific and Arabian Sea. The processes of these unique regions 
        will be combined into a global model that will allow us to 
        better predict, for example, future climate change.
        <bullet> This past winter, a team of researchers has lived on 
        an icebreaker that is frozen into the pack ice in the Arctic 
        Ocean, drifting with the ice floes as a floating science 
        station. The project is part of a set of activities, taking 
        place under the U.S. Global Change Research program, known as 
        SHEBA (Surface Heat Budget of the Arctic Ocean), which pulls 
        together data and information on how the sun, clouds, air, ice, 
        and ocean interact and affect the annual melting and refreezing 
        of the Arctic ice cap. This has long been a major uncertainty 
        in climate models, and the SHEBA project has already helped to 
        improve our understanding of climate change.
        <bullet> Although the unique biological communities associated 
        with ocean floor hydrothermal sites have been known for more 
        than two decades, new organisms are still being discovered and 
        the evolution-with-time of these sites is being explored--they 
        are severely affected by volcanic eruptions on the ocean floor 
        but re-establish themselves with remarkable rapidity. NSF-
        funded repeat visits by both manned submersibles and remotely 
        operated vehicles to ocean depths of 12,000 feet and more are 
        providing these remarkable observations.
        <bullet> We recognize the need for long term continuous 
        observations on the ocean floor (not just repeat visits once 
        every few months), and it is indeed a challenge to devise 
        approaches to this that are reliable, flexible and affordable. 
        We are heavily involved in three particularly exciting pilot 
        projects: two that use fiber optic cables (a volcano 
        observatory off the island of Hawaii, and a coastal monitoring 
        site off New Jersey) and a third located in mid-Pacific between 
        Hawaii and California that will use an abandoned ocean floor 
        telephone cable thousands of miles long to provide real-time 
        access to an earthquake monitoring station and other sensors.
    This scientific research can help us learn how to monitor changes 
on the ocean floor, and satellite remote sensing is a uniquely powerful 
approach to global observations of the sea surface. But how can we keep 
track of what is going on in the miles of ocean that exists in between? 
This is a realm in which we have seen some of the most remarkable 
innovation over the past five years fueled primarily by the needs of 
the World Ocean Circulation Experiment (WOCE).
    As I present this to you this morning there are approximately 500 
robotic vehicles distributed over the thousands of square miles of the 
north Atlantic oceans, drifting along with the ocean currents over half 
a mile beneath the surface. Approximately every two weeks each of these 
small instruments rises to the surface collecting data (temperature and 
salinity) as it moves to the sea surface, and then via satellite, 
telemeters these data as well as its position to investigators on 
shore. After being on the surface for about a day, they sink back down 
to their profiling depth of about half a mile and then repeat the cycle 
month after month after month. These robot floats, called PALACE 
(Profiling Autonomous Lagrangian Circulation Explorer) floats, are for 
the first time providing physical oceanographers with a real time 
synoptic view of ocean dynamics.
    Technological innovation is changing the way we do oceanography--
permanent seafloor observatories, new optical and acoustic imaging 
methods, long-term moorings, deep-diving manned submersibles, satellite 
communications, robotic vehicles--all are mechanisms for discovery that 
NSF supports as part of the revolution in the way we observe our 
planet's oceans.
    We are in a time of rich opportunity for research in oceanography. 
As new observation systems are implemented we will learn ever more 
about the changes that are occurring on our planet on time scales of 
days, years decades and centuries. Hurricanes, droughts, floods, 
destruction of coral reefs, coastal erosion, climate change, El Ninos, 
fisheries, human health--all are phenomena that are affected by, and in 
some cases, controlled by the oceans.
    U.S. investigators in our nation's universities and oceanographic 
institutions are the world leaders. We do not lack for talent, or ideas 
or plans. If NSF can provide its community of researchers with adequate 
resources, as requested by the President in his 1999 budget, then a 
spectacular future of continuing new discovery and understanding is 
assured, that will build the intellectual foundation, and provide the 
knowledge of the ongoing processes, that is essential to the design of 
an effective ocean monitoring system.
    Thank you again, Mr. Chairman, for the opportunity to share with 
you and the members of your Committee the exciting research being 
supported by NSF. I would be pleased to respond to any questions that 
you might have.
                                 ______
                                 

        Statement of Rear Admiral Paul G. Gaffney. II, U.S. Navy

    Mr. Chairman, distinguished members of the Subcommittee, 
thank you for this opportunity to appear before you to discuss 
ocean exploration, monitoring and assessment.
    This year--the International Year of the Ocean--has 
heightened public interest in our planet's most important 
features--the oceans. It has also elevated ocean science, 
research and education much higher on the national agenda, as 
was demonstrated by the prestigious participation at the 
National Ocean Conference held last month at the Naval 
Postgraduate School in Monterey, California. Enormous momentum 
was created by the Administration, Congress, academia and 
industry at that meeting; perhaps we can use the remainder of 
this year to raise and meet national oceanographic goals that 
have been neglected of late.
    The Department of the Navy has long considered the study 
and exploration of the oceans to be a required competency--we 
must do it. We do it, not because we love it, or because it's 
interesting, or because we are chartered to do it--we do it 
because it is the foundation that provides the information 
required for every Naval operation. In fact, the root 
discriminator that separates Naval Forces from Army and Air 
Forces is the maritime environment in which the Navy and Marine 
Corps must work. That point is punctuated when you consider we 
are a Naval Force which is continually and agilely deployed 
globally; and, that is why the Navy must take a leading role in 
national oceanographic matters. (Admiral Boorda and I testified 
before this Committee and others in 1996 on this point.)
    Over the last 50 years, we have invested billions of 
dollars in research, global ocean survey, data archives and 
predictive capabilities. Take for example these ocean 
monitoring tools and platforms that came out of our naval 
science and technology investment:

        --SWATH Bathymetric Sonar
        --Laser Line Scan Optical Sensor
        --Global Positioning Satellite (location)
        --PALACE Float (profiling capability)
        --Current meters (conventional and acoustic doppler)
        --Bioluminescence sensors, and
        --Moorings . . . just to name a few.
    We made the investment in these capabilities because we must be 
experts about our working environment. We must know ocean processes so 
we can understand how energy is transferred throughout the marine 
environment--a Naval need with an incredible civilian spin-off.
    Despite our past efforts, and those of others, it is surprising to 
learn that only about five to seven percent of the ocean floor has been 
mapped to anywhere near the resolution that 100 percent of the moon has 
been mapped.
    Why is that? Somehow it seems unlikely that it's more important or 
less expensive to map the moon. I, too, get excited about space 
exploration, but I get really excited about exploring and understanding 
our oceans for many of the same reasons. Future capabilities that will 
help us in our ocean quest include affordable arrays of drifting buoys 
that can profile the water column and report home their observations. 
These exist in quantities of hundreds measuring some variables; we need 
thousands measuring all important variables. Coastal systems that can 
profile the water column while moored to the bottom are also needed.
    As a science and technology funding agency--the first in America--
the Office of Naval Research develops many new technologies for ocean 
exploration and understanding. The major tools used today are based on 
a legacy of shipboard sampling, but the future belongs to autonomous 
systems that complement the shipboard survey we will continue to need 
for decades. These new systems can be either moored, or drifting, or 
independently moving small, unmanned systems. ONR is currently working 
on networks of inexpensive autonomous underwater vehicles. Also on the 
horizon are new remote sensing instruments such as the Naval EarthMap 
Observer satellite, or NEMO, which will provide hyperspectral images 
when it is launched in 2002. It is a DOD/Navy/Industry partnership.
    NEMO, like so many other programs, reiterates the fact that no one 
group or agency can support all of the costs for oceanographic 
research, ship operations, surveying and modeling that need to be done 
on a global scale. The Department of the Navy depends on partnerships 
with other Federal agencies--NSF, NOAA, NASA, DOE, DOI--as well as 
academia and industry to develop new capabilities and leverage our 
decreasing budget dollars.
    Another key opportunity for partnering is offered through the 
National Oceanographic Partnership Program (NOPP). Now in its third 
year, this program was initiated, and is fully supported by Congress. 
The Secretary of the Navy provided Department money and took the lead 
in getting the program started. Other agencies are now joining in with 
funding and strong participation. It is a terrific partnership with 
real give-and-take, great understanding, new leveraging, and program 
focus. Because the several agencies that are working together can 
actually create critical mass to address the neglected ocean, the NOPP 
is the right body to address a national ocean exploration, observation, 
and assessment agenda.
    I believe that the Nation should discuss the need for 100 percent 
survey and understanding of the world's oceans during the next 
millennium. This, of course, can only be accomplished if all cognizant 
agencies cooperate and participate. For example, we might consider 
starting such a survey, and beginning the millennium, with a single 
exploration and mapping effort--100 percent coverage of one important 
area. According to NOAA, thirty-six U.S. states and territories have a 
total of more than 95,000 miles of coastline, so there are many 
suitable places to begin a major effort. As I will discuss later, the 
NOPP presents a forum for discussion of a suitable and plausible 
project. We owe it to ourselves and our descendants to know at least as 
much about our oceans as we know about the moon . . . or other planets.
    I've been calling this notion ``GISMOE'' for the Great Intra-
American Seas Millennium Ocean Expedition . . . it could also be called 
``GABE''--Great American Bays/Bights Expedition. Perhaps I should leave 
the acronyms to others, but what is important is that we start the 
process, and there are two reasons I think this is worthwhile:

        1. The crosscutting theme of the recently released Ocean 
        Studies Board report ``Opportunities in Ocean Sciences: 
        Challenges on the Horizon,'' is that we need to observe our the 
        water planet. The report concludes that ocean sciences are at a 
        critical point--a point where, given a commitment, 
        ``substantial progress can be made on a number of societally 
        important issues.'' Such an effort needs to be a national 
        imperative and involve the resources of many Federal and State 
        agencies. So starting to understand the global ocean at one 
        coastline makes sense, certainly for the civil agencies, but 
        also because a global Navy needs to understand the very complex 
        littoral environment processes. Understanding those processes 
        in our own ``Exclusive Economic Zone'' and littorals is more 
        affordable and can serve as a surrogate for similar littoral 
        areas in remote parts of the world where we may not have 
        access.
        2. There is a great unity in the ocean community for continued 
        and comprehensive observation for a myriad of reasons. I agree 
        with that; a proper start is to determine a full and complete 
        baseline. A survey of a body or basin of water, its water 
        column, bathymetry and bottom composition is ``Step One.'' Then 
        continual monitoring of that area over time long time is next. 
        That's what we do with weather today and what we should be 
        doing with the oceans.
    These are some thoughts from a Navy oceanographer and Chief of 
Naval Research. I recognize they are hollow unless embraced by ``100 
percent partners''--full participation of all cognizant agencies. In 
that regard, this issue of global ocean monitoring, and where and how 
to start is appropriate for discussion within the NOPP's Leadership 
Council and Advisory Panel. I intend to propose such dialogue be 
initiated so that we join the next millennium with an acceptable plan. 
We are doing our part by funding many projects to understand ocean 
dynamics, including investigating new approaches to mapping and 
understanding ocean bottoms and littoral areas.
    It will take decades to understand the submerged planet as well as 
we understand the moon, but we need to begin somewhere. Your support 
for our requested program is important.
    Thank you for the opportunity to be here today. I would be happy to 
respond to any questions you might have.
                                 ______
                                 

   Statement of Charles F. Kennel, Director, Scripps Institution of 
           Oceanography, University of California, San Diego

    Mr. Chairman and Members of the Committee, thank you for 
inviting me to testify today on the status of ocean monitoring 
and assessment. I am Dr. Charlie Kennel, Director of U.C. San 
Diego's Scripps Institution of Oceanography (SIO).

Overview Of Scripps Institution Of Oceanography

    From our campus overlooking the Pacific Ocean, Scripps 
Institution of Oceanography (SIO) continues a 95-year tradition 
of scientific leadership. SIO is one of the world's oldest, 
largest, and most important centers for marine science 
research, graduate training and public service. Part of the 
University of California at San Diego, SIO's preeminence in 
biological, physical, chemical, climatological, geological, and 
geophysical studies reflects its continuing commitment to 
excellence in research, modern facilities, distinguished 
faculty, outstanding students, and public service. 
Acknowledging our rich tradition, the National Research Council 
recently ranked SIO first in faculty quality among oceanography 
programs nationwide.
    With annual expenditures of more than $100 million and a 
staff of 1,200 scientists, technicians and support personnel, 
including nearly 200 graduate students, SIO is involved in more 
than 300 major research programs.
    SIO also maintains one of the largest and most capable 
fleets of academic research vessels in the country with 4 sea-
going vessels and one research platform. SIO has operated large 
and small world-ranging ocean science research ships 
continuously since 1908. Ships were among the first 
technologies used by scientists to make ocean observations. In 
a 1953 proposal to the Rockefeller Foundation, a Scripps 
scientist stated: ``The long arm of the oceanographer is his 
ships and his groping fingers, the cable. Without ships to test 
and to explore, the hypotheses and laboratory discoveries of 
the marine researcher become dry and insubstantial and the 
researcher blind and isolated.''
    Scientists depend on ships to make many critical ocean 
observations (see Appendix 1). New technology has expanded the 
spatial and temporal sampling capability of ships. Devices such 
as drifting and moored buoys, sea floor observatories, 
subsurface profiling floats, satellites, acoustic instruments, 
remotely operated vehicles and autonomous underwater vehicles, 
enable scientists to make continuous observations of time 
dependent, large-scale phenomena (e.g. El Ninos), abrupt events 
(e.g. earthquakes, tsunamis), and provide the essential, 
complementary ingredients of an effective global observing 
strategy.
    At Scripps, we believe an integrated approach to 
observations--which includes climate, weather, global change, 
natural hazards, and solid earth phenomena such as undersea 
volcanoes and earthquakes--is fundamental to sound science. 
This approach enhances the productivity of our research 
infrastructure while generating coherent data sets required in 
interdisciplinary ocean studies. Although continuing technology 
development is critical, we already have at our disposal the 
basic elements of an integrated global observing strategy.

The Value of Integrated Observations

    Predicting changes in the ocean is critical for the 
accurate forecast of the global climate on time scales of 
months to years. Variations in the ocean structure and 
circulation patterns dramatically affect heat and moisture 
input to the atmosphere. The oceans also play a key role in 
regulating greenhouse gases in the atmosphere. Ocean 
observations are required to capture events, initialize 
numerical models for climate and weather prediction, calibrate 
remote sensing observations of the ocean, and provide real-time 
data for marine commerce, ecosystem monitoring, and fisheries. 
In short, any global climate prediction system depends on an 
integrated global observing strategy for the ocean.
    An integrated observing strategy is important to how we 
monitor and manage local as well as global climate events. The 
devastation caused by this year's El Nino demonstrates the 
significant social and economic value of new capabilities to 
forecast climate conditions up to a year in advance. Economic 
studies suggest that enhanced climate prediction capabilities, 
if used appropriately, could reduce extreme seasonal climate 
damage costs in the U.S. by 25 percent or $2.7 billion annually 
in the agricultural sector alone. Water, energy, and 
transportation managers, as well as farmers, could plan and 
avoid or mitigate losses with more accurate and timely 
predictions. The agricultural futures market would also become 
more efficient.
    In an effort to reach out to vulnerable communities, 
Scripps, the California Department of Boating and Waterways, 
and the California Coastal Commission hosted a workshop in La 
Jolla August 19, 1997, to describe and discuss possible coastal 
impacts of severe storms associated with El Nino. As a follow 
up to that meeting, Scripps researchers worked closely with 
potentially affected cities throughout the region. We 
encouraged them to prepare risk assessments and a list of 
possible mitigation measures. That information provided 
decisionmakers with science based, cost/benefit analyses to 
determine the appropriate level of mitigation. In this way, an 
integrated observing strategy, informed by public and private 
sector needs, transformed scientific data into knowledge that 
saved lives and property.
    The media coverage of the 1997-98 El Nino led to a public 
understanding that events in the middle of the tropical Pacific 
ocean have a profound impact on day-to-day lives. Scientist 
have long appreciated the need to understand and observe the 
ocean, now the public does as well. We believe that this public 
understanding can be transformed into support for the 
implementation of a global ocean observing strategy.

Elements of a Strategy

    Prediction of the 1997-98 El Nino was made possible by the 
El Nino Southern Oscillation (ENSO) observing system, the 
Topex-Poseidon satellite radar altimeter, and improvements in 
coupled ocean-atmospheric models. The remarkable performance of 
these research tools offers a glimpse of what a more 
comprehensive, integrated observing system and continued 
improvements in coupled ocean-atmospheric models will provide. 
These advances will improve prediction of short-term climate 
events, such as El Ninos and La Ninas (the opposite phase of 
the El Nino oscillation), elucidate the impacts of such events 
on regional weather and ocean biology, and are necessary before 
we can deepen understanding of long-term climate events like 
Pacific Decadal Oscillation, North Atlantic Oscillation, and 
Tropical Atlantic Variability. Only by understanding these 
natural events will scientists be able to distinguish ``global 
warming'' from natural climate variability.
    Responding to policymakers' needs for definitive assessment 
of global warming and the range of its possible regional 
impacts requires a global observing strategy. I believe such a 
strategy must contain at least five elements. First and 
foremost, it requires integrating ``in situ'' with space-based 
systems. No one technology is adequate to provide the answers 
needed, as each technology has its benefits and drawbacks (see 
Appendix 2). Space observation provides global coverage. ``In 
situ'' observations provide ``sea truth'' by making 
measurements in the water, of the water, and under the water. 
The key to implementing a successful observational strategies 
lies in adopting a problem-driven approach where the system is 
designed to meet measurement needs specific to given problems. 
Both the data needs for numerical models and a clear definition 
of new scientific questions will determine the appropriate 
array of observational technologies to be used.
    The second component of the strategy involves improving 
climate models, data assimilation techniques, and computing 
power. The combination of these tools will enable us to 
reconcile disparate observations and fill gaps where data are 
not available. In addition, these models make possible 
predictions ranging from global scale to highly localized 
phenomena. Scripps scientists are currently developing a system 
of ``nested'' models that will transform predictions of 
seasonal climate events into rainfall predictions for 
individual California watersheds. This climate initiative 
builds on established practices of weather services which 
assimilate vast arrays of disparate data into complex models 
for forecasting.
    Third, despite the array of technologies currently 
available, new instruments are needed. Therefore, a technology 
development program that is science-based, through the active 
engagement of the university community (see Appendix 3), must 
be formally integrated into Federal agency research programs. 
Technology development should focus on increasing capabilities 
and lowering costs strategically to enable the deployment of a 
global system. One advance of particular value would be the 
development of an underwater Global Positioning System (GPS). 
Underwater GPS would be a tremendous advance for underwater 
gliders and other observational technologies, and enable 
profiling floats to begin to measure ocean velocity. Another 
area of focus should be on the many chemical and biological 
properties of the ocean which cannot yet be measured by any 
remote or unmanned technology with the necessary precision or 
on the same scales as can physical and geophysical properties.
    The fourth component of this strategy ensures the 
continuity of physical, chemical and biological measurements. 
By this I mean supporting long-term time series observations 
and data validation. These measures are especially important 
when scientists make predictions about long-term phenomena like 
Pacific Decadal Oscillation and global warming. As we deploy 
``better, faster, and cheaper'' observational tools, such as 
new satellites and ocean observatories, we must take care to 
maintain established records and data in standard formats and 
on modern media, and implement a program to calibrate and 
validate new data sets. Furthermore, even areas where 
technology development is still necessary, climatically 
important measurements of chemical and biological properties by 
conventional means must be sustained until they can be 
enhanced. For example, efforts to study changes in ocean 
chemistry and biology must continue, especially as they bear on 
the prediction of the effects of atmospheric carbon dioxide on 
climate change, questions of profound importance to predicting 
global warming.
    The fifth element of a global observing strategy involves 
cooperation and coordination of research activities. Federal 
agencies must work to integrate existing programs, leverage 
scarce resources, and promote new initiatives. I am pleased to 
see the Navy, NOAA and NSF here today. Coordination and 
commitment of these agencies, along with NASA and DOE, is 
critical to the success of this strategy.
    Increased cooperation and collaboration is also required 
among universities, Federal agencies, other countries and the 
private sector. As we move from exploratory research to routine 
monitoring for many global-scale problems, we will enter into 
new partnerships, and use non-traditional institutional 
arrangements. Scripps is at the forefront of creating such 
partnerships across institutional and national boundaries. In 
1999, SIO will lead an international experiment in the Indian 
ocean (INDOEX) to study the impact of aerosols on regional and 
global climate, a major global change issue. INDOEX, involves 
ships, aircraft, surface stations and satellites, from several 
nations, including U.S.A., Germany, France, England, India, 
Netherlands and others.
    International cooperation is also moving forward on a 
broader scale. International space agencies, through the 
Committee on Earth Observation Satellites (CEOS), are working 
with other partners to develop an Integrated Global Observing 
Strategy (IGOS). IGOS is a process to help ensure that 
resources are addressing the highest priority observational 
needs, while taking into account the missions and plans of 
space agencies, and the up-to-date requirements of major 
international user programs. This involves assessing gaps and 
unnecessary overlaps in observing systems, as well as cross-
cutting issues such as data calibration, validation, 
management, and policy. Initial IGOS focus has been on the 
space component. Now is the time to provide the ``in situ'' 
strategy to complement the progress made by CEOS.

Specific Recommendations

    Given our present observational capabilities and the 
demonstrated value of ocean observations in seasonal climate 
prediction, fisheries, commerce, coastal and military 
applications, it is imperative that we advance an integrated 
global observational strategy. This is the only way to provide 
the data needed by scientists to make believable and useful 
predictions about natural and anthropogenic climate change.
    Having described the key components of the envisioned 
observing strategy we must now take the necessary steps to 
implement it. First, research institutions and Federal agencies 
must begin the analysis necessary to determine the best 
combination of ``in situ'' observing platforms. Satellite 
integration has begun under the auspices of CEOS. We must 
support a similar effort for ``in situ'' sensors. Federal 
agencies should then support the technology development and 
research needed to optimize the integration strategy.
    Second, it is critical to support NOAA's efforts in climate 
monitoring, particularly the President's initiative for a $12 
million, global array of subsurface profiling floats. The array 
will complement the contributions of climate-related 
satellites. Another technology which has already demonstrated 
its value in conjunction with satellite altimetry data is Ocean 
Acoustic Tomography (see end of Appendix 2). Ocean Acoustic 
Tomography measures temperature averages over thousands of 
miles, thus permitting the detection of small climatic changes. 
Deploying both types of technology and supporting research on 
improving the use of integrated data will accelerate efforts to 
improve seasonal-to-interannual and climate prediction, detect 
global warming, and attribute these changes to natural and/or 
anthropogenic causes.
    NASA's GODAE (Global Ocean Data Assimilation Experiment) 
initiative, a pilot project of the CEOS/IGOS process, should be 
supported. GODAE will be the first operational demonstration of 
our ability to estimate the physical state of the global ocean 
and its evolution. With many potential benefits, including 
improved climate prediction and understanding, GODAE will turn 
powerful data assimilation techniques to merging data streams 
from satellites and ``in situ'' sensors.
    Finally, I encourage Federal agencies to develop modeling 
and data analysis programs that provide up-to-date descriptions 
of the evolving ocean. This effort should encompass physical 
fields that affect weather and climate, as well as chemical and 
biological processes. The National Science Foundation and the 
Department of Energy are considering important initiatives in 
this area. NSF is considering an ocean data assimilation and 
modeling center to support climate dynamics and other branches 
of ocean sciences such as biological modeling and assessment 
and pollution prediction. DOE is contemplating anew to increase 
dramatically the rate of climate simulation model development 
and application to produce decade-to-century-scale forecasts of 
climate change with regional resolution.
    Again, I thank you for this opportunity to testify and 
would be happy to answer any questions.

Appendix 1--Ships

    Scientific observation of the ocean has always required the 
use of dedicated, effective research vessels. Today, research 
ships are an even more critical component of ocean observations 
than has been the case in the past for a number of reasons. 
First, there is simply no way that many important observations 
can be made in unattended or remote fashion. Ships can manage 
observations of deep ocean chemical properties needed to 
diagnose the ocean's role in the global carbon cycle and to 
track them in various locations, tasks unattended devices 
cannot perform. Arguably the most important observing network 
in today's ocean, in terms of practical impact on forecasts of 
real economic and social importance, is the tropical Pacific 
buoy array (ENSO) maintained by NOAA. Its reliability depends 
on regular network maintenance using ships. Ships will be 
needed in increasing numbers and capabilities to establish, 
maintain and support the integrated global observational 
strategy.
    Second, as new technologies emerge, they generally must be 
calibrated with existing methods to preserve the integrity of 
the data. Calibration or ``sea truth'' must be both extensive 
and ongoing, and it typically involves the use of ships. 
Finally, global-scale measurements are increasingly amenable to 
remote or unattended observation. This refines our large-scale 
views of oceanic variability and focuses investigations into 
the fundamental oceanic processes that shape large-scale fields 
and their evolutions. One can see the beginnings of this in 
programs that have carried out shipborne investigations of 
upwelling regions guided by near-real time satellite imagery to 
disclose patterns of upwelling activity. As the mapping and 
monitoring power of unattended sensors grows, so will 
opportunities for shipborne process studies which will allow 
monitoring at all the scales needed to understand oceanographic 
phenomena.

Appendix 2--Ocean Observing Technologies

    No one technology is adequate to provide the answers needed 
to understand and predict natural and anthropogenic climate 
change. Each technology has its benefits and drawbacks. For 
example, the forte of satellite data is the regularly 
repeating, synoptic nature of the data. Its limitation is that 
satellites observe only the sea surface, hence requiring 
subsurface data for interpretation and understanding. Principal 
satellites of interest in climate are altimeters (e.g. Jason-1, 
TOPEX-Poseidon, Geosat Follow-On) for measuring sea surface 
height; scatterometers (e.g. NSCAT, ERS-2) for measuring 
surface winds; and AVHRR (Advanced Very High Resolution 
Radiometer) for measuring sea surface temperature and microwave 
rainfall measurements. Scripps is now experimenting with the 
measurement of tropospheric moisture at sea using the Global 
Positioning System (GPS).
    ``In situ'' data are required to interpret subsurface 
structure corresponding to satellite surface observations. For 
example, measurements of upper ocean heat content are crucial 
in interpreting altimetric height. In situ measurements are 
also needed to measure the deep ocean, calibrate satellite 
data, and measure parameters for which there is no satellite 
capability. As an indication of the number of tools which 
already are available, a brief list of ``in situ sensors'' is 
as follows:

        <bullet> surface drifters which measure surface current, sea 
        surface temperature (SST), barometric pressure and surface 
        salinity;
        <bullet> profiling floats which measure temperature and 
        salinity profiles, presently to about 15;
        <bullet> moorings or fixed platforms which deploy a wide 
        variety of instruments to measure temperature, salinity, 
        velocity, and meteorological parameters;
        <bullet> volunteer observing ships which measure temperature, 
        salinity to 800 meters, meteorological parameters, and 
        atmospheric trace gases;
        <bullet> acoustic thermometry which measures sound speed, 
        providing temperature averages along paths between source-
        receiver pairs; and
        <bullet> research vessels, which are required to deploy and 
        monitor some of the above systems, conduct hydrographic surveys 
        (that include biological and/or geochemical measurements in 
        addition to temperature, salinity, velocity), and meet 
        specialized needs autonomous instruments cannot.
    Integration of ``in situ'' and satellite data has begun to show 
great promise. A joint analysis of Satellite Altimetry, Acoustic 
Tomography and computer modeling found that changes in sea level as 
measured by satellite altimetry are not by themselves a representative 
proxy for the variable ocean heat storage (an essential climate 
parameter). But when combined with the acoustic measurements they yield 
a meaningful measure of the basin heat storage.

Appendix 3--History of Ocean Climate Observations and Technology 
Development at Scripps Institution of Oceanography

    Throughout the 20th century, university researchers have advanced 
the design and testing of new instruments and observing technologies. 
Scripps has played a leadership role in pilot experiments for new in 
situ observing technologies (ocean profiles and surface observations 
from volunteer commercial ships, profiling floats, acoustic 
thermometry, and surface drifting buoys) that make large-scale 
observations economically feasible for some climatically important 
ocean properties.
    Scripps scientists were responsible for the following breakthroughs 
in ocean climate monitoring and technology development:

        <bullet> establishing the California Current monitoring system 
        in 1937--the longest, continuing ocean monitoring program in 
        the U.S.;
        <bullet> inventing and establishing the Volunteer Observing 
        Ship Expendable Bathy Thermograph (VOS-XBT), or temperature 
        probes network, in the early 1970s;
        <bullet> inventing and deploying the global drifting buoy 
        network in late 1980s;
        <bullet> inventing and deploying the network of real-time, 
        profiling floats in north Atlantic and tropical Pacific;
        <bullet> developing the most accurate techniques for measuring 
        the amount of carbon in seawater;
        <bullet> and inventing the acoustic thermometer.
    Clearly, continuing support for university collaboration with the 
private sector technology development is important to sustaining 
innovation in the global observational strategy.

  Charles F. Kennel, Director of Scripps Institution of Oceanography, 
 Vice Chancellor of Marine Sciences, UCSD, Dean of the Graduate School 
                           of Marine Sciences
    Charles F. Kennel is the ninth director of Scripps Institution of 
Oceanography at the University of California, San Diego (UCSD). Kennel 
also serves as UCSD Vice Chancellor of Marine Sciences, Dean of the 
Graduate School of Marine Sciences, and a professor in the Scripps 
graduate department.
    Born in Cambridge, Mass., Kennel received a bachelor's degree in 
astronomy from Harvard College in 1959 and a doctoral degree in 
astrophysical sciences from Princeton University in 1964. He was 
appointed an associate professor of physics at UCLA in 1967 and a 
professor in 1971. Kennel became UCLA's executive vice chancellor in 
1996.
    Kennel's research at UCLA focused on fundamental plasma physics 
combined with space and astrophysics. His work centered on basic plasma 
turbulence theory and collisionless shocks, the physics of the solar 
wind and planetary magnetospheres, and the physics of pulsar 
magnetospheres and active galactic nuclei.
    From 1994-1996, Kennel served as associate administrator for NASA, 
directing Mission to Planet Earth, the world's largest environmental 
science program.
    Kennel was elected to the National Academy of Sciences in 1991 and 
was named a Fellow of the American Association for the Advancement of 
Science in 1992. He also is a Fellow of the American Geophysical Union 
and the American Physical Society. He won the NASA Distinguished 
Service Medal and the Aurelio Peccei Prize from the Italian Academy of 
Sciences in 1996. He received the 1997 James Clerk Maxwell Prize from 
the American Physical Society and the 1998 Hannes Alfven Medal of the 
European Geophysical Society.
    Kennel has been a Harvard National Scholar, a Woodrow Wilson 
Fellow, a National Science Foundation Postdoctoral Fellow, a Guggenheim 
Foundation Fellow, a Fulbright Senior Lecturer in Brazil, a Fairchild 
Professor at the California Institute of Technology, and an Alfred P. 
Sloan Foundation Fellow.
[GRAPHIC] [TIFF OMITTED] T0670.021

Statement of Admiral James D. Watkins, U.S. Navy (Retired), President, 
          Consortium for Oceanographic Research and Education

    Mr. Chairman, members of the Subcommittee, I would like to 
thank you for calling this hearing today to discuss this very 
important subject. The previous witnesses have described to you 
several outstanding examples of the kinds of capabilities we 
have, or will soon have, and some of our priorities to better 
understand, monitor and predict the greatest natural force on 
Earth. What I would like to do is provide a conceptual road map 
for how we might transition from the ideas of our researchers, 
working with decision makers in the Congress and the 
Administration, to an actual system which integrates our 
national needs and priorities.
    The breadth of our national need for knowledge of the ocean 
system is daunting. Research providing the foundation for 
missions to advance economic development, protect quality of 
life, ensure national security and improve science education is 
a complex weave of multiple disciplines and specialized 
technologies, addressing questions from the most basic 
mechanics of the Earth system to very applied engineering 
solutions. Federal responsibility for the wide scope of ocean 
science is split among nine Federal research agencies, each 
with specific mission parameters, but often working in unison 
to address common research requirements.
    We have come to an important juncture in the development of 
ocean science. More than ever, our progress is limited by the 
lack of important ocean observations. As the Ocean Science 
Board of the National Research Council has clearly stated in 
their new report ``Opportunities in Ocean Sciences: Challenges 
on the Horizon,'' questions of marine resource management, 
climate prediction and the role of the oceans in human health 
require extensive and long-term observation of the oceans on 
global, regional and local scales. Mr. Chairman, I would like 
to submit a copy of that report for the record.
    For example, if we are to monitor and respond to harmful 
algal blooms, we must be able to ``see'' their early 
indications in individual estuaries and near shore 
environments. If we are to understand the dynamics of 
commercial fish species, we will require in-depth knowledge of 
the regional ecosystem and how it is affected by physical and 
chemical variability. If we are to provide better regional 
climate forecasts, we must first obtain and integrate oceanic 
data on a basin and global scale. The applications are many, 
and the potential payoffs are tremendous.
    So, what is needed to meet our objectives?
    You have heard from previous witnesses that there has been 
a lot of thought given to this question and that we have a lot 
of answers. The merits of a variety of independent observing 
system proposals are well understood and accepted. What we do 
not currently have is a definitive strategic plan to chart our 
course to an integrated ocean observing system. We need to 
couple an analysis of the mission responsibilities of the 
various Federal agencies with our current and planned 
observational capabilities to determine the best opportunities 
for success. From this analysis, we can build a plan detailing 
exact requirements for a comprehensive ocean observation 
system. The system would then include integrated modules to 
gather data and address questions on a variety of time and 
space scales, assimilating and fusing information from these 
various sources, much like the well established practices of 
the defense intelligence community. Analysis and interpretation 
would then provide the products we will rely upon for better 
decision-making.
    We have undertaken a similar task in the past, which is 
worth commenting on. After World War II, anti-submarine warfare 
was determined to be a national priority. The oceanographic 
community, including Federal agencies, academia and industry, 
was tasked with developing a system to detect and track Soviet 
submarines, utilizing significant developments in acoustics 
research and related technologies. What resulted was the 
development of the Integrated Underwater Surveillance System 
(IUSS), the fixed portion of which was called SOSUS, the giant 
series of listening arrays in the Atlantic and Pacific. 
Observations from these fixed and mobile arrays were highly 
integrated or fused with multi-source observational and 
intelligence data from satellites, ships, aircraft, humans, and 
other sensors over a wide geographic area. This highly capable 
and integrated system eventually contributed significantly to 
our winning the Cold War. Notable is (1) the definition of 
national need, with a full understanding of the costs and 
benefits, (2) the commitment to development of a system, not 
just a collection of parts, and (3) the contribution of all 
sectors, each bringing their own strengths to meeting a complex 
challenge. The resultant sixteen billion dollar investment was 
clearly justified. In the interest of demonstrating the 
effectiveness of our national will, I should also note that the 
SOSUS arrays went from the blackboard in 1949 to full scale 
operation in 1952 . . . only three years!
    I believe we are poised to undertake a similarly important, 
if not more complex, task today, but we need your assistance. 
We need the Congress to demand a strategic plan for a 
comprehensive ocean observing system. The Congress should 
request that the National Ocean Research Leadership Council, 
consisting of the leaders of each of the nine Federal ocean 
research agencies, develop such a plan, defining components, 
priorities and resource requirements. This plan should show how 
an integrated system would optimize the Federal effort to meet 
specific objectives on a specific timeline, making clear the 
products and benefits expected. The plan should also address 
the involvement of other maritime nations, where we have mutual 
objectives and can share equitably in the investment. And this 
plan should build upon the volumes of well thought-out agendas 
developed by the individual agencies, National Academy of 
Sciences and nations in years past. Mr. Chairman, this will 
certainly require coordination of the Congress and 
Administration to make the proper resources available.
    From such a plan, we can finally begin to realize the many 
benefits of ocean science that we just talked about today. On 
the horizon, we can envision greatly enhanced coastal weather 
forecasting and longer term climate forecasting, more efficient 
shipping, and more informed decision-making for difficult 
environmental and resource management questions, just to name a 
few benefits.
    The timing for such an initiative will never be better. 
Because of the recent El Nino event and the oncoming La Nina, 
the U.S. public sees daily the value of our current ocean 
observational capabilities. But those who rely on the products 
of ocean science--State governments, many industries, the 
educational community to name a few--are clamoring for more 
comprehensive data and more advanced products. For the last 50 
years of this century, we devoted our national attention on 
space, and properly so. We need to focus our attention in the 
first 50 years of the next century to understanding how the 
oceans can assist mankind in meeting its burgeoning challenges.
    The Congress has already set in place a perfect mechanism 
for implementation of this kind of initiative by creating the 
National Oceanographic Partnership Program. This program 
provides a platform for collaborative work by the ocean 
research agencies, bringing together the best minds in 
academia, industry and the Federal laboratories.
    In closing, I want to thank you again for holding this 
hearing. Your continued leadership, Mr. Chairman, and the 
interest of this Subcommittee is sincerely appreciated by the 
oceanographic research community. I hope that you will consider 
my recommendations and I look forward to continuing to work 
with you to ensure we are doing everything we can to make wise 
use of our greatest natural resource.

[GRAPHIC] [TIFF OMITTED] T0670.001

[GRAPHIC] [TIFF OMITTED] T0670.002

[GRAPHIC] [TIFF OMITTED] T0670.003

[GRAPHIC] [TIFF OMITTED] T0670.004

[GRAPHIC] [TIFF OMITTED] T0670.005

[GRAPHIC] [TIFF OMITTED] T0670.006

[GRAPHIC] [TIFF OMITTED] T0670.007

[GRAPHIC] [TIFF OMITTED] T0670.008

[GRAPHIC] [TIFF OMITTED] T0670.009

[GRAPHIC] [TIFF OMITTED] T0670.010

[GRAPHIC] [TIFF OMITTED] T0670.011

[GRAPHIC] [TIFF OMITTED] T0670.012

[GRAPHIC] [TIFF OMITTED] T0670.013

[GRAPHIC] [TIFF OMITTED] T0670.014

[GRAPHIC] [TIFF OMITTED] T0670.015

[GRAPHIC] [TIFF OMITTED] T0670.016

[GRAPHIC] [TIFF OMITTED] T0670.017

[GRAPHIC] [TIFF OMITTED] T0670.018

[GRAPHIC] [TIFF OMITTED] T0670.019

[GRAPHIC] [TIFF OMITTED] T0670.020


</pre></body></html>
